APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Federal Circuit, Eli Lilly & Co. v.
Hospira, Inc., Nos. 18-2126 & 18-2127,
Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd.,
No. 18-2128, (Aug. 9, 2019) ......................... App-1
Appendix B
Order Denying Rehearing, United States
Court of Appeals for the Federal Circuit,
Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd.,
No. 18-2128 (Nov. 8, 2019) ........................ App-31
Appendix C
Findings of Fact and Conclusions of Law,
United States District Court for the
Southern District of Indiana, Eli Lilly &
Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16CV-00308-TWP-MPB (June 22, 2018) ..... App-33
Appendix D
Order, United States District Court for
the Southern District of Indiana, Eli Lilly
& Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16CV-00308-TWP-MPB (Dec. 14, 2017) ....... App-50

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
Nos. 18-2126, 18-2127
________________
ELI LILLY AND COMPANY,
v.

Plaintiff-Appellee,

HOSPIRA, INC.,
Defendant-Appellant.
________________
No. 2018-2128
________________
ELI LILLY AND COMPANY,
v.

Plaintiff-Appellee,

DR. REDDY’S LABORATORIES, LTD., DR. REDDY’S
LABORATORIES, INC.,
Defendants-Appellants.
________________
Dated: August 9, 2019
________________
Before: Lourie, Moore, and Taranto,
Circuit Judges.
________________

App-2
OPINION
LOURIE, Circuit Judge:
Hospira Inc. (“Hospira”), Dr. Reddy’s Laboratories
Ltd., and Dr. Reddy’s Laboratories Inc. (collectively,
“DRL”) appeal from two judgments of the United
States District Court for the Southern District of
Indiana in two infringement suits brought by Eli Lilly
& Company (“Lilly”) under the Hatch-Waxman Act, 21
U.S.C. § 355. The district court held in each case that
the defendant’s submission of a New Drug Application
pursuant to 21 U.S.C. § 355(b)(2) infringed U.S.
Patent 7,772,209 (the “’209 patent”) under 35 U.S.C.
§ 271(e)(2). See Eli Lilly & Co. v. Hospira, Inc.,
No. 1:16-cv-03460-TWP-MPB, 2018 WL 3008570 (S.D.
Ind. June 15, 2018) (“Hospira Decision”); Eli Lilly &
Co. v. Dr. Reddy’s Labs., Ltd., 323 F. Supp. 3d 1042
(S.D. Ind. 2018) (“DRL Decision”); see also Eli Lilly &
Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16-cv-00308-TWPMPB, 2017 WL 6387316 (S.D. Ind. Dec. 14, 2017)
(“DRL Summary Judgment Decision”). Accordingly,
the district court entered orders under 35 U.S.C.
§ 271(e)(4)(A) prohibiting FDA approval of the
products at issue until the expiration of the ’209
patent. Eli Lilly & Co. v. Hospira, Inc., No. 1:16-cv03460-TWP-MPB (S.D. Ind. June 27, 2018), ECF No.
94; Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd., No. 1:16cv-00308-TWP-MPB, 2018 WL 3616715 (S.D. Ind.

App-3
July 27, 2018). We decide these appeals together in
this combined opinion.1
We reverse the district court’s finding of literal
infringement in the Hospira Decision as clearly
erroneous in light of the court’s claim construction of
“administration of pemetrexed disodium.” Because the
district court did not err in its application of the
doctrine of equivalents in either decision, we affirm
both judgments of infringement. Thus, the Hospira
Decision is affirmed-in-part and reversed-in-part, and
the DRL Decision is affirmed.
Background
Lilly markets the compound pemetrexed in the
form of a disodium salt as Alimta®, which is indicated,
both alone and in combination with other active
agents, for treating certain types of non-small cell lung
cancer and mesothelioma. Pemetrexed is an
antifolate, a class of molecules which, at the time of
the invention in 2001, was “one of the most thoroughly
studied classes of antineoplastic agents.” ’209 patent
col. 1 ll. 19-20. Antifolates are structurally similar to
folic acid and work by competitively binding to certain
enzymes that use folic acid metabolites as cofactors in
several steps of de novo nucleotide synthesis. Id. col. 1
ll. 40-41. Unlike folic acid, antifolates do not enable
these synthetic steps, but instead inhibit them.
Pemetrexed inhibits several of these enzymes,
including thymidylate synthase, which methylates
deoxyuridine in the final step of deoxythymidine
1 We refer to the joint appendices in these appeals by reference
to each appellant. Lilly’s brief in the Hospira appeal is referred
to as “Lilly Br. I” and its brief in the DRL appeal as “Lilly Br. II.”

App-4
synthesis. Id. col. 1 ll. 59-61. By inhibiting the creation
of these nucleotides, antifolates slow down DNA and
RNA synthesis, and with it, cell growth and division.
Cancer cells tend to grow rapidly, so antifolate therapy
affects them disproportionately, but healthy cells can
also be damaged.
Pemetrexed had been known for at least a decade
in 2001. Lilly’s U.S. Patent 5,344,932 (“Taylor”)
disclosed that certain glutamic acid derivatives with
pyrrolo[2,3-d]pyrimidine heterocyclic ring structures,
exemplified by pemetrexed, are “particularly
active … inhibitors of thymidylate synth[ase],” Taylor
col. 1 ll. 59-60; see also id. col. 19 l. 37-col. 20 l. 25
(disclosing data indicating that pemetrexed inhibits
thymidylate synthase activity in vitro in human cell
lines and in vivo in mice). The Taylor patent also
disclosed that its compounds could be employed as
“pharmaceutically acceptable salt[s],” id. col. 2 l. 35,
and that the disodium salt form was particularly
advantageous, id. col. 2 ll. 47-48. U.S. Patent
4,997,838 (“Akimoto”), to which Lilly took a license,
disclosed a large genus of compounds containing
pyrrolo[2,3-d]pyrimidine heterocyclic ring structures
and a glutamic acid functional group, and that
encompassed pemetrexed. The Akimoto patent
discloses nearly fifty exemplary compounds, col. 14 l.
61-col. 16 l. 48, none of which is pemetrexed. Akimoto
further discloses that its compounds may be prepared
as salts of “pharmaceutically acceptable bases,” such
as “alkali metals, alkali earth metals, non-toxic
metals, ammonium, and substituted ammonium.” Id.
col. 14 ll. 44-47.

App-5
By 2001, Lilly had also published the results of
several clinical trials investigating the use of
pemetrexed disodium as a treatment for different
types of cancer. See, e.g., W. John et al., “Activity of
Multitargeted Antifolate (Pemetrexed Disodium,
LY231514) in Patients with Advanced Colorectal
Carcinoma: Results from a Phase II Study,” Cancer,
88(8):1807-13 (2000). In the course of conducting these
studies, Lilly discovered that pemetrexed disodium
caused severe hematologic and immunologic side
effects, resulting in infections, nausea, rashes, and
even some deaths. See id.; see also Neptune Generics,
LLC v. Eli Lilly & Co., 921 F.3d 1372, 1377-78 (Fed.
Cir. 2019) (discussing Lilly’s response to adverse
clinical data), and Neptune Generics, LLC v. Eli Lilly
& Co., No. IPR2016-00240, 2017 WL 4466557, at *2830 (P.T.A.B. Oct. 5, 2017) (same). As the ’209 patent
teaches, such side effects are not uncommon among
antifolates. See ’209 patent col. 1 ll. 11-14. Some
researchers hypothesized that folic acid deficiency
caused
these
side
effects
and
suggested
supplementing pemetrexed disodium treatment with
folic acid. DRL J.A. 7870 (citing J.F. Worzalla et al.,
“Role of Folic Acid in Modulating the Toxicity and
Efficacy of the Multitargeted Antifolate, LY231514,”
Anticancer Research, 18:3235-40 (1998)).
The invention of the ’209 patent is an improved
method of treatment with antifolates, particularly
pemetrexed disodium, through supplementation with
a methylmalonic acid lowering agent and folic acid.
Doing so, according to the patent, lessens antifolate
toxicity without sacrificing efficacy. See ’209 patent
col. 10 ll. 17-53 (reporting that pre-supplementation
regimen of vitamin B12 and folic acid in clinical

App-6
studies substantially reduced pemetrexed-induced
toxicity and deaths while delivering a superior
chemotherapeutic response rate). The ’209 patent lists
preferred antifolates, including some then-existing
antifolate therapies, as well as “derivatives described
in” several patents including the Akimoto patent, and
“most preferred, Pemetrexed Disodium.” Id. col. 4 ll.
28-43. Each of the claims of the ’209 patent requires
administration of pemetrexed disodium following
administration of folic acid and a methylmalonic acid
lowering agent, specified in some claims, as well as the
Alimta® label, as vitamin B12. Claim 12 is
representative2:
12. An improved method for administering
pemetrexed disodium to a patient in need of
chemotherapeutic treatment, wherein the
improvement comprises:
a) administration of between about 350
μg and about 1000 μg of folic acid prior to
the first administration of pemetrexed
disodium;
b) administration of about 500 μg to
about 1500 μg of vitamin B12, prior to the
first administration of pemetrexed
disodium; and
c) administration
disodium.

of

pemetrexed

The district court treated claim 12 as representative, DRL
Summary Judgment Decision, 2017 WL 6387316, at *1-2;
Hospira Decision, 2018 WL 3008570, at *2, and no party has
disputed that determination on appeal. See, e.g., DRL Opening
Br. 8-9; Hospira Opening Br. 23.
2

App-7
In a parent application, Application 10/297,821
(the “’821 application”), Lilly originally sought broad
claims to methods of administering an antifolate in
conjunction with a methylmalonic acid lowering
agent, with or without folic acid. The original
independent claims 2 and 5 read:
2. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an
effective amount of said antifolate in
combination with a methylmalonic acid
lowering agent.
5. (Original) A method of reducing the toxicity
associated with the administration of an
antifolate to a mammal comprising
administering to said mammal an
effective amount of said antifolate in
combination with a methylmalonic acid
lowering agent and FBP binding agent.
DRL J.A. 7860. A dependent claim further limited the
an-tifolate to pemetrexed disodium. Id. at 7861.
Claim 2 was rejected as anticipated by F.G.
Arsenyan et al., “Influence of Methylcobalamin on the
Antineoplastic Activity of Methotrexate,” Onkol.
Nauchn., 12(10):1299-1303 (1978), which disclosed
experiments treating mice with various tumors with a
combination of methotrexate, an antifolate, and
methylcobalamin, a vitamin B12 derivative. The rest
of the pending claims, including Claim 5, were rejected
as obvious over a collection of references: U.S. Patent
5,431,925 (“Ohmori”)—which taught treatment of

App-8
chemotherapeutically-induced
immunosuppression
with a combination of vitamins that could include folic
acid and vitamin B12—Worzalla, John, and Arsenyan.
’821 application, Sept. 27, 2004, Office Action; DRL
J.A. 7868-72.
In response, Lilly amended both claims to narrow
“antifolate” to “pemetrexed disodium” and cancelled
its dependent claim limited to pemetrexed disodium.
’821 application, Jan. 25, 2005, Response to Office
Action; DRL J.A. 7877-84. In its remarks, Lilly
asserted that the amendment to claim 2 overcame the
anticipation rejection because Arsenyan does not
disclose pemetrexed disodium. Id. To overcome the
obviousness rejection of claim 5 and its dependents,
Lilly generally argued that, while John discloses
hematologic and immunologic toxicities from
administration of pemetrexed disodium, it never
suggests vitamin supplementation, and none of the
other references “teach the use of [vitamin B12] to
reduce toxicities associated with an antifolate.” Id.
The examiner then withdrew the anticipation
rejection and later withdrew the obviousness
rejection. The ’821 application issued as U.S. Patent
7,053,065, and the ’209 patent later issued from a
continuation application.
These appeals were taken from cases which are
among the latest in a series of patent disputes about
Alimta® that reaches back more than a decade.3 In
This is the fourth appeal we have decided concerning Alimta®
and the third specifically concerning the ’209 patent. See Neptune
Generics, 921 F.3d 1372; Eli Lilly & Co. v. Teva Parenteral Meds.,
Inc., 845 F.3d 1357 (Fed. Cir. 2017); Eli Lilly & Co. v. Teva
Parenteral Meds., Inc., 689 F.3d 1368 (Fed. Cir. 2012).
3

App-9
this most recent chapter, DRL, Hospira, and Actavis4
submitted New Drug Applications under § 505(b)(2) of
the Federal Food, Drug, and Cosmetic Act, 21 U.S.C.
§ 355(b)(2), relying on Lilly’s clinical data for
pemetrexed disodium. But each applicant seeks to
market different pemetrexed salts—in DRL’s and
Hospira’s applications, pemetrexed ditromethamine.
Both DRL and Hospira represented to the FDA that
their choice of the tromethamine cation was
immaterial because pemetrexed dissociates from its
counterion in solution, DRL J.A. 8555-57; Hospira J.A.
124, and tromethamine was known to be safe for
pharmaceutical use, DRL J.A. 8555, 8557.
Lilly then asserted the ’209 patent against each of
these NDA applicants in the United States District
Court for the Southern District of Indiana. In the DRL
case, the district court construed the phrase
“administration of pemetrexed disodium” to mean
“liquid administration of pemetrexed disodium,”
which “is accomplished by dissolving the solid
compound pemetrexed disodium into solution.” DRL
Summary Judgment Decision, 2017 WL 6387316, at
*4. The district court denied DRL’s motion for
summary judgment of noninfringement, holding that
prosecution history estoppel does not bar Lilly from
Lilly also sued Actavis LLC (“Actavis”) for infringement of the
’209 patent, Eli Lilly & Co. v. Actavis LLC, No. 1:17-cv-00982TWP-MPB (S.D. Ind. Mar. 30, 2017), ECF No. 1, but the parties
stipulated to be bound by the district court’s decision in the DRL
case that neither prosecution history estoppel nor the disclosurededication rule bars Lilly’s assertion of infringement through the
doctrine of equivalents. Actavis Br. 2. Actavis filed a brief in the
DRL appeal as amicus curiae requesting reversal of that portion
of the district court’s decision.
4

App-10
asserting
that
DRL’s
proposed
pemetrexed
ditromethamine product would infringe through the
doctrine of equivalents because the reason for Lilly’s
amendment was to distinguish other antifolates and
was therefore only tangential to pemetrexed
ditromethamine. Id. at *6-7. The district court also
rejected DRL’s argument that Lilly dedicated
pemetrexed ditromethamine to the public under the
disclosure-dedication rule through its reference to
Akimoto’s antifolate compounds because Akimoto is
not incorporated by reference into the ’209 patent and
in any event discloses pemetrexed ditromethamine
only within a genus of thousands of compounds, which
the district court held does not constitute the requisite
disclosure of an identifiable alternative under this
court’s precedent. Id. at *7-8; see, e.g., SanDisk Corp.
v. Kingston Tech. Co., 695 F.3d 1348, 1363 (Fed. Cir.
2012).
Following a bench trial, the district court’s
opinion largely followed its rationale in the DRL
Summary Judgment Decision with respect to the
applicability of prosecution history estoppel and the
disclosure-dedication rule. DRL Decision, 323 F. Supp.
3d at 1046-48. In addition, the court found that DRL’s
proposed product would be administered in a manner
that would meet the “administration of pemetrexed
disodium” step of the asserted claims under the
doctrine of equivalents, id. at 1049, regardless of the
“differences in chemical properties between
pemetrexed
disodium
and
pemetrexed
ditromethamine,” id. at 1050.
In the Hospira case, the parties similarly disputed
the doctrine of equivalents, but Lilly also asserted

App-11
literal infringement because Hospira’s proposed
product label allows reconstitution of its pemetrexed
ditromethamine salt in saline. Hospira Decision, 2018
WL 3008570, at *2-3; Hospira J.A. 229. After the
district court issued the DRL Summary Judgment
Decision, Hospira conceded, contingent upon its right
to appeal, that its product would infringe under the
claim construction of “administration of pemetrexed
disodium” set forth in that opinion and that its
doctrine of equivalents arguments were likewise
foreclosed. Hospira Br. 18. The district court,
“rel[ying] heavily” on the DRL Summary Judgment
Decision, granted Lilly’s motion for summary
judgment of infringement, both literally and under the
doctrine of equivalents. Hospira Decision, 2018 WL
3008570, at *1 n.2, *6.
These appeals followed. We have jurisdiction
under 28 U.S.C. § 1295(a)(1).
DISCUSSION
We review a district court’s grant of summary
judgment according to the law of the regional circuit.
Kaneka Corp. v. Xiamen Kingdomway Grp. Co., 790
F.3d 1298, 1303 (Fed. Cir. 2015) (citing Halo Elecs.,
Inc. v. Pulse Elecs., Inc., 769 F.3d 1371, 1377 (Fed. Cir.
2014)). In the Seventh Circuit, summary judgment is
reviewed de novo, construing all facts and drawing all
inferences in favor of the non-movant. Wis. Alumni
Research Found. v. Apple Inc., 905 F.3d 1341, 1352
(Fed. Cir. 2018) (citing Austin v. Walgreen Co., 885
F.3d 1085, 1087 (7th Cir. 2018)). On appeal from a
bench trial, we review a district court’s conclusions of
law de novo and its findings of fact for clear error.
Braintree Labs., Inc. v. Novel Labs., Inc., 749 F.3d

App-12
1349, 1358 (Fed. Cir. 2014) (citing Brown &
Williamson Tobacco Corp. v. Philip Morris Inc., 229
F.3d 1120, 1123 (Fed. Cir. 2000)). A factual finding is
clearly erroneous if, despite some supporting evidence,
we are left with the definite and firm conviction that a
mistake has been made. United States v. U.S. Gypsum
Co., 333 U.S. 364, 395 (1948).
Claim construction is ultimately an issue of law,
which we review de novo. Shire Dev., LLC v. Watson
Pharm., Inc., 787 F.3d 1359, 1364 (Fed. Cir. 2015). We
review de novo the district court’s findings of fact on
evidence “intrinsic to the patent (the patent claims
and specification[], along with the patent’s
prosecution history),” and review for clear error
extrinsic findings of fact. Teva Pharm. USA, Inc. v.
Sandoz, Inc., 135 S. Ct. 831, 841 (2015). While
infringement is a question of fact, Lucent Techs., Inc.
v. Gateway, Inc., 580 F.3d 1301, 1309 (Fed. Cir. 2009),
we review de novo the district court’s grant of
summary judgment of non-infringement, Unwired
Planet, LLC v. Apple Inc., 829 F.3d 1353, 1356 (Fed.
Cir. 2016). To prove infringement, a patentee “must
supply sufficient evidence to prove that the accused
product or process contains, either literally or under
the doctrine of equivalents, every limitation of the
properly construed claim.” Seal-Flex, Inc. v. Athletic
Track & Court Const., 172 F.3d 836, 842 (Fed. Cir.
1999). The patentee has the burden of proving
infringement by a preponderance of the evidence.
SmithKline Diagnostics, Inc. v. Helena Labs. Corp.,
859 F.2d 878, 889 (Fed. Cir. 1988).
Hospira requests reversal of the district court’s
finding that its submission of a § 505(b)(2) NDA for its

App-13
pemetrexed product literally infringed the claims of
the ’209 patent. DRL and Hospira both argue, as does
the amicus curiae Actavis, that the district court erred
as a matter of law by refusing to apply prosecution
history estoppel to bar Lilly’s doctrine of equivalents
claim, and DRL further contends that the disclosurededication rule precludes Lilly’s equivalents claim.
Finally, DRL disputes the district court’s finding that
administration of pemetrexed ditromethamine is
equivalent to the claim element “administration of
pemetrexed disodium.” We address each argument in
turn.
A. Literal Infringement
Hospira argues that it cannot literally infringe
the claims of the ’209 patent because intravenous
administration of pemetrexed ditromethamine
dissolved in saline—a solution which contains
pemetrexed and chloride anions alongside sodium and
tromethamine cations—is not “administration of
pemetrexed disodium.” Hospira also notes that such a
solution will, in any case, contain far more than two
sodium cations per pemetrexed anion. Finally,
Hospira appears to make a perfunctory argument
that, in the alternative, we should reverse the district
court’s construction and hold that the term
encompasses any route of administering pemetrexed
disodium, not just liquid, as the district court’s
construction requires.
Lilly counters that Hospira’s view improperly
imposes a “source limitation,” requiring that the
pemetrexed disodium salt exist in solid form before
administration, even though Hospira’s proposed
product label, like that of Alimta®, calls for

App-14
administration of a solution containing pemetrexed
anions and sodium cations. Lilly also contends that
Hospira’s claim construction arguments are irrelevant
because Hospira’s proposed product will be
administered intravenously anyway.
We agree with Hospira. It was clearly erroneous
for the district court to hold that the “administration
of pemetrexed disodium” step was met because
Hospira’s pemetrexed ditromethamine product will be
dissolved in saline before administration. A solution of
pemetrexed and chloride anions and tromethamine
and sodium cations cannot be deemed pemetrexed
disodium simply because some assortment of the ions
in the solution consists of pemetrexed and two sodium
cations. As Lilly acknowledges throughout its brief,
pemetrexed disodium is a salt. See, e.g., Lilly Br. I 12
(pemetrexed toxicity is caused “by pemetrexed itself
once dissociated in solution,” not pemetrexed
disodium); see also Hospira J.A. 1596 (October 2017
Alimta® Label referring to the drug substance as the
“disodium salt” of pemetrexed). Once diluted, the salt’s
crystalline structure dissolves, and the individual ions
dissociate. See Hospira J.A. 2820 (declaration of Lilly’s
expert). In other words, pemetrexed disodium no
longer exists once dissolved in solution, and, as a
corollary, a different salt of pemetrexed dissolved in
saline is not pemetrexed disodium.
We conclude that to literally practice the
“administration of pemetrexed disodium” step under
the district court’s claim construction, the pemetrexed
disodium salt must be itself administered. See DRL
Summary Judgment Decision, 2017 WL 6387316, at
*4
(“‘[A]dministration
of
pemetrexed

App-15
disodium’ … refer[s] to a liquid administration of
pemetrexed disodium. … , accomplished by dissolving
the solid compound pemetrexed disodium into
solution ….”); see also Tex. Instruments Inc. v. Cypress
Semiconductor Corp., 90 F.3d 1558, 1563 (Fed. Cir.
1996) (“To literally infringe, the accused … process
must contain every limitation of the asserted claim.”
(citing Laitram Corp. v. Rexnord, Inc., 939 F.2d 1533,
1535 (Fed. Cir. 1991))). There is no dispute that
Hospira has only sought approval to market
pemetrexed ditromethamine, Lilly Br. I 4, and that
neither its proposed product nor methods of
administering it will constitute administering the
pemetrexed disodium salt. Accordingly, Hospira will
not practice the step of “administration of pemetrexed
disodium,” and the district court’s finding of literal
infringement must be reversed.
B. Doctrine of Equivalents
Few propositions of patent law have been so
consistently sustained by the Supreme Court as the
doctrine of equivalents. See Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushki Co., 535 U.S. 722, 733 (2002)
(“Festo VIII”) (“[E]quivalents remain a firmly
entrenched part of the settled rights protected by the
patent.”); Warner-Jenkinson Co. v. Hilton Davis
Chem. Co., 520 U.S. 17, 40 (1997) (“[W]e adhere to the
doctrine of equivalents.”); Graver Tank & Mfg. Co. v.
Linde Air Prods. Co., 339 U.S. 605, 608 (1950)
(“Originating almost a century ago in the case of
Winans v. Denmead, [56 U.S. 330 (1853)] … [the
doctrine of equivalents] has been consistently applied
by this Court and the lower federal courts, and
continues today ready and available for utilization

App-16
when the proper circumstances for its application
arise.”). It is settled that a patentee is entitled “in all
cases to invoke to some extent the doctrine of
equivalents,” Seymour v. Osborne, 78 U.S. 516, 555
(1870), without a “judicial exploration of the equities
of a case” beforehand. See Warner-Jenkinson, 520 U.S.
at 34.
Yet the Supreme Court has also acknowledged
that the doctrine of equivalents, “when applied
broadly, conflicts with the definitional and publicnotice functions of the statutory claiming
requirement,” Warner-Jenkinson, 520 U.S. at 29, and
that, without the proper balance between these two
imperatives, the doctrine may “take[] on a life of its
own, unbounded by the patent claims.” See id. at 2829. We have emphasized, moreover, that the doctrine
of equivalents is “the exception, however, not the
rule,” and not merely “the second prong of every
infringement charge, regularly available to extend
protection beyond the scope of the claims.” London v.
Carson Pirie Scott & Co., 946 F.2d 1534, 1538 (Fed.
Cir. 1991). Patent infringement is principally
determined by examining whether the accused subject
matter falls within the scope of the claims.
To that end, courts have placed important
limitations on a patentee’s ability to assert
infringement under the doctrine of equivalents. See,
e.g., Festo VIII, 535 U.S. at 737-41 (prosecution history
estoppel); Warner-Jenkinson, 520 U.S. at 39 n.8 (“[A]
theory of equivalence [cannot] entirely vitiate a
particular claim element ….”); Graver Tank, 339 U.S.
at 608 (accused equivalent cannot differ substantially
from the claimed invention); Johnson & Johnston

App-17
Assocs. Inc. v. R.E. Serv. Co., 285 F.3d 1046, 1054
(Fed. Cir. 2002) (en banc) (subject matter disclosed but
not claimed is dedicated to the public) (citing Maxwell
v. J. Baker, Inc., 86 F.3d 1098 (Fed. Cir. 1996)); Wilson
Sporting Goods Co. v. David Geoffrey & Assocs., 904
F.2d 677, 683 (Fed. Cir. 1990) (“[T]he asserted scope of
equivalency [cannot] encompass the prior art ….”
(Rich, J.) (citations omitted)). These appeals implicate
several of these limitations.
1. Prosecution History Estoppel
The main dispute in these appeals is whether
Lilly has rebutted the presumption of prosecution
history estoppel that attached to its amendment in the
’821 application. Prosecution history estoppel arises
when a patent applicant narrows the scope of his
claims during prosecution for a reason “substantial[ly]
relating to patentability.” See generally Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 344 F.3d
1359, 1366-67 (Fed. Cir. 2003) (en banc) (“Festo X”).
Such a narrowing amendment is presumed to be a
surrender of all equivalents within “the territory
between the original claim and the amended claim,”
but the presumption is overcome if the patentee can
show the applicability of one of the few exceptions
identified by the Supreme Court. Festo VIII, 535 U.S.
at 740-41 (citing Exhibit Supply Co. v. Ace Patents
Corp., 315 U.S. 126, 136-37 (1942)). Whether
prosecution history estoppel applies to bar a doctrine
of equivalents claim is a question of law, reviewed de
novo. See Regents of Univ. of Cal. v. Dakocytomation
Cal., Inc., 517 F.3d 1364, 1371 (Fed. Cir. 2008) (citing
Pharmacia & Upjohn Co. v. Mylan Pharm., Inc., 170
F.3d 1373, 1376 (Fed. Cir. 1999)).

App-18
Lilly does not dispute that the amendment in
question was both narrowing and made for a
substantial reason relating to patentability. Lilly Br.
II 21. Furthermore, Lilly relies on only one exception
to giving effect to the presumption as to the scope of
surrender: that the rationale of its amendment “[bore]
no more than a tangential relation to the equivalent
in question.” Festo VIII, 535 U.S. at 740. As a result,
the parties’ dispute about whether prosecution history
estoppel applies is confined to whether Lilly’s
amendment narrowing “an antifolate” to “pemetrexed
disodium” was only tangential to pemetrexed
ditromethamine, which is the accused compound.
Whether the tangential exception applies is a question
of law, Integrated Tech. Corp. v. Rudolph Techs., Inc.,
734 F.3d 1352, 1356 (Fed. Cir. 2013), and a patentee
seeking to use the exception “must base his arguments
solely upon the public record of the patent’s
prosecution.” Festo X, 344 F.3d at 1369-70 (citation
omitted).
The Appellants argue that Lilly failed to explain
why it did not pursue a narrower amendment literally
encompassing pemetrexed ditromethamine, and they
emphasize our statement that the tangential
exception is “very narrow.” Integrated, 734 F.3d at
1358 (quoting Cross Med. Prods., Inc. v. Medtronic
Sofamor Danek, Inc., 480 F.3d 1335, 1342 (Fed. Cir.
2007)). The Appellants further point out that Lilly
cannot be said to have “lacked the words to describe”
pemetrexed ditromethamine, see Festo VIII, 535 U.S.
at 734, because Lilly’s previous patents, as well as the
European companion to the ’209 patent, claimed
pemetrexed salts generally and pemetrexed disodium
in a dependent claim. They also assert that the district

App-19
court erred by focusing on whether Lilly actually
needed to relinquish pemetrexed ditromethamine to
overcome the Arsenyan anticipation rejection because
“the tangential exception is not a patentee’s-buyer’sremorse exception.” DRL Br. 39.
In response, Lilly argues that the district court
properly held that the reason for its amendment was
to distinguish pemetrexed from antifolates generally
and that the different salt type is a merely tangential
change with no consequence for pemetrexed’s
administration or mechanism of action within the
body. Lilly also contends that it is not barred from
asserting the tangential exception simply because
pemetrexed ditromethamine is within “the territory
between the original claim and the amended claim.”
Festo VIII, 535 U.S. at 740. Finally, Lilly argues that
Appellants’ view that courts must “consider
hypothetical alternative amendments” that would
literally encompass the alleged equivalent “would
eviscerate the tangentiality exception.” Lilly Br. II 44.
We agree with Lilly. As a general matter, we find
Appellants’ view of prosecution history estoppel, and
the tangential exception in particular, too rigid.
Tangential means “touching lightly or in the most
tenuous way.” Webster’s Third New International
Dictionary (2002). The reason for Lilly’s amendment,
as the district court concluded, was to narrow original
claim 2 to avoid Arsenyan, which only discloses
treatments using methotrexate, a different antifolate.
See DRL J.A. 7879-80 (overcoming the Arsenyan
anticipation rejection by arguing that it “does not
disclose pemetrexed disodium”). To overcome a clear
anticipation, Lilly opted to narrow its original claim 2

App-20
and its dependents to more accurately define what it
actually invented, an improved method of
administering pemetrexed. In other words, the
particular type of salt to which pemetrexed is
complexed relates only tenuously to the reason for the
narrowing amendment, which was to avoid Arsenyan.
We therefore hold that Lilly’s amendment was merely
tangential to pemetrexed ditromethamine because the
prosecution history, in view of the ’209 patent itself,
strongly indicates that the reason for the amendment
was not to cede other, functionally identical,
pemetrexed salts.
The
prosecution
record
confirms
our
understanding. Original claim 5, which, like all the
current claims of the ’209 patent, required
supplementation with both vitamin B12 and folic acid,
was never rejected as anticipated over Arsenyan.
Instead, the art cited against original claim 5 and its
dependent claims in the obviousness ground of
rejection was replete with information about
pemetrexed disodium; John disclosed clinical trials
using pemetrexed disodium, reporting both its efficacy
and its toxic side effects, and in response, DRL J.A.
7869-70,
Worzalla
suggested
folic
acid
supplementation to counteract these side effects, DRL
J.A. 7870-71. The prosecution record implies that
Lilly’s amendment, inartful though it might have
been, was prudential in nature and did not need or
intend to cede other pemetrexed salts.
Hospira argues that the amendment was made to
overcome the obviousness rejection over Ohmori and
John and that Lilly has provided no reason for the
amendment relative to that rejection. Like Lilly, we

App-21
find this argument makes little sense. John discloses
the results of a clinical trial of pemetrexed disodium
and explicitly suggests the toxicities caused by
pemetrexed; as we concluded above, narrowing
“antifolate” to “pemetrexed disodium” could not
possibly distinguish the art cited in the obviousness
ground of rejection.
DRL also insists that we have held that an
applicant’s remorse at ceding more claim scope than
necessary is not a reason for the tangential exception
to apply. See, e.g., Lucent Techs., Inc. v. Gateway, Inc.,
525 F.3d 1200, 1218 (Fed. Cir. 2008); Schwarz
Pharma, Inc. v. Paddock Labs., Inc., 504 F.3d 1371,
1377 (Fed. Cir. 2007). This is generally true, but DRL
overreads the holdings of these cases. After all, the
tangential exception only exists because applicants
over-narrow their claims during prosecution.
Amendments are not construed to cede only that
which is necessary to overcome the prior art, see
Schwarz, 504 F.3d at 1377, nor will the court
“speculat[e]” whether an amendment was necessary,
see Kinzenbaw v. Deere & Co., 741 F.2d 383, 389 (Fed.
Cir. 1984). But the reason for an amendment, where
the tangential exception is invoked, cannot be
determined without reference to the context in which
it was made, including the prior art that might have
given rise to the amendment in the first place. See
Festo X, 344 F.3d at 1370. Here, it is unlikely that a
competitor would have been “justified in assuming
that if he [made an equivalent pemetrexed salt], he
would not infringe [the ’209 patent].” Kinzenbaw, 741
F.2d at 389; cf. Festo VIII, 535 U.S. at 738 (“There is
no reason why a narrowing amendment should be

App-22
deemed to relinquish equivalents … beyond a fair
interpretation of what was surrendered.”).
Furthermore, Appellants’ suggestion that Lilly
must prove that it could not have drafted a claim that
literally encompassed pemetrexed ditromethamine is
unsupported by our precedent on prosecution history
estoppel, not to mention excessive. We do not demand
perfection from patent prosecutors, and neither does
the Supreme Court. See Festo VIII, 535 U.S. at 738 (“It
does not follow … that [an] amended claim becomes so
perfect in its description that no one could devise an
equivalent.”). Lilly’s burden was to show that
pemetrexed ditromethamine was “peripheral, or not
directly relevant,” to its amendment, Festo X, 344 F.3d
at 1369. And as we concluded above, Lilly has done so.
In addition, the Appellants maintain that when a
patentee submits an amendment adding two claim
limitations, it cannot later argue that the reason for
the amendment was tangential to an accused
equivalent containing only one of the added
limitations simply because the second limitation was
unnecessary to overcome the prior art. They offer Felix
v. American Honda Motor Co., 562 F.3d 1167 (Fed. Cir.
2009), as an illustration of this principle.5 In that case,
The parties argue at length about which of our cases are
properly analogous to the facts presented in these appeals. Here,
in applying the Supreme Court’s framework, we find the
analogies to other cases less helpful than a direct consideration
of the specific record of this case and what it shows about the
reason for amendment and the relation of that reason to the
asserted equivalent. This case-specific focus, within the
governing framework, comports with the equitable nature of
prosecution history estoppel. See Festo VIII, 535 U.S. at 738
(“[The Supreme Court has] consistently applied the doctrine in a
5

App-23
we held that prosecution history estoppel applied to a
claim directed to a vehicle bed storage system—
limited in response to a rejection to having a channel
with a flange and a gasket mounted on that flange—
barring assertion of equivalence with respect to a
product that met the channel aspect, but not the
gasket aspect, of the limitation. Id. at 1184-85.
But as Lilly points out, this holding was
determined by that patent’s prosecution history, Felix,
562 F.3d at 1184, and we have also held that
prosecution history estoppel does not apply in similar
circumstances, where the prosecution record differed.
See, e.g., Regents, 517 F.3d at 1376-78 (amendment
narrowing “disabling hybridization capacity of
[nucleic acid] sequences” to methods using a “blocking
nucleic acid” was merely tangential to unclaimed
repetitive sequence nucleic acids); Insituform Techs.,
Inc. v. CAT Contracting, Inc., 385 F.3d 1360, 1368
(Fed. Cir. 2004) (amendment narrowing method of
inserting resin into tube using a vacuum to one using
“a cup” to do so was merely tangential to a multiple
cup embodiment because the number of cups bore no
relationship to the cited prior art or the rationale
behind the narrowing amendment). Thus, our cases
demonstrate that prosecution history estoppel is
resistant to the rigid legal formulae that Appellants
seek to extract from them. See Intervet Inc. v. Merial
Ltd., 617 F.3d 1282, 1291 (Fed. Cir. 2010) (“[T]here is
flexible way, not a rigid one.”); cf. Heckler v. Cmty. Health Servs.
of Crawford Cty., Inc., 467 U.S. 51, 59 (1984) (“Estoppel is an
equitable doctrine invoked to avoid injustice in particular
cases.… [and] a hallmark of the doctrine is its flexible
application ….”).

App-24
no hard-and-fast test for what is and what is not a
tangential relation ….”).
Finally, DRL also contends that our precedent
squarely forecloses Lilly’s tangentiality argument,
and it invites us to read those cases to hold that
“where the reason for the amendment and the
equivalent in question both relate to the same claim
element, the tangential exception does not apply.”
DRL Br. 47. We decline this invitation because such a
bright-line rule is both contrary to the equitable
nature of prosecution history estoppel, as articulated
in Festo VIII, 535 U.S. at 738, and inconsistent with
the equitable spirit that animates the doctrine of
equivalents, see Graver Tank, 339 U.S. at 608-09 (the
doctrine is one of “wholesome realism”). Instead, we
reaffirm that whether an amendment was merely
tangential to an equivalent must be decided in the
context of the invention disclosed in the patent and the
prosecution history. Festo X, 344 F.3d at 1370.
DRL’s intuition—that an amendment that
narrows an existing claim element evinces an
intention to relinquish that claim scope—is often
correct. Indeed, as we have found in previous cases, it
is a powerful indication that an amendment was not
merely tangential. See, e.g., Honeywell Int’l, Inc. v.
Hamilton Sundstrand Corp., 523 F.3d 1304, 1315-16
(Fed. Cir. 2008); Biagro W. Sales, Inc. v. Grow More,
Inc., 423 F.3d 1296, 1306 (Fed. Cir. 2005). But here,
we conclude that this consideration is not dispositive
because the rest of the prosecution history, and the
’209 patent itself, show that it is implausible that the
reason for Lilly’s amendment was to surrender other
pemetrexed salts. Indeed, such a relinquishment

App-25
would effectively dedicate the entirety of Lilly’s
invention to the public and thereby render the ’209
patent worthless, and it would have been irrelevant
for distinguishing the prior art. Again, the prosecution
history strongly indicates a less sweeping and more
sensible reason for Lilly’s amendment: to surrender
antifolates other than pemetrexed. Thus, we conclude
on this prosecution record that Lilly’s amendment was
merely tangential to pemetrexed ditromethamine.
2. Disclosure-Dedication Rule
DRL next argues that the disclosure-dedication
rule bars Lilly from asserting infringement under the
doctrine of equivalents. The ’209 patent sets forth its
invention as an improved method of administering
antifolates, ’209 patent col. 2 ll. 47-58, and teaches
that the derivatives described in the Akimoto patent
are preferred examples of antifolates, id. col. 4 ll. 3440. DRL contends that one of these derivatives is
pemetrexed ditromethamine and that it was dedicated
to the public when Lilly declined to claim it. DRL
asserts that the district court erred because it both
required express incorporation of Akimoto by
reference into the ’209 patent and concluded that
Akimoto does not specifically disclose pemetrexed
ditromethamine.
Lilly counters that the disclosure-dedication rule
requires express disclosure of the subject matter in
question in the specification except in narrow
circumstances, such as when that subject matter is
disclosed in a priority application, see Abbott Labs. v.
Sandoz, Inc., 566 F.3d 1282, 1297 (Fed. Cir. 2009), or
prior art expressly incorporated by reference,
SanDisk, 695 F.3d at 1366. Lilly also argues that the

App-26
district court correctly determined that the relevant
portion of Akimoto discloses only a generic formula
from which a skilled artisan would not be able to
recognize pemetrexed ditromethamine.
We agree with Lilly and hold that the disclosurededication rule is inapplicable to this case because the
’209 patent does not disclose methods of treatment
using pemetrexed ditromethamine, and, as a result,
Lilly could not have dedicated such a method to the
public.
Under the disclosure-dedication rule, subject
matter disclosed by a patentee, but not claimed, is
considered dedicated to the public. See Johnson &
Johnston, 285 F.3d at 1054. The reason for the
doctrine is that members of the public reading a
disclosure of particular subject matter are entitled,
absent a claim to it, to assume that it is not patented
and therefore dedicated to the public (unless, for
example, claimed in a continuation or other
application based on the disclosure). Cf. Maxwell, 86
F.3d at 1107 (failure to claim inventive subject matter
“is clearly contrary to 35 U.S.C. § 112, which requires
that a patent applicant ‘particularly point[] out and
distinctly claim[] the subject matter which the
applicant regards as his invention’”). Subject matter is
considered disclosed when a skilled artisan “can
understand the unclaimed disclosed teaching upon
reading the written description,” but not “any generic
reference … necessarily dedicates all members of that
particular genus.” PSC Comput. Prod., Inc. v. Foxconn
Int’l, Inc., 355 F.3d 1353, 1360 (Fed. Cir. 2004).
DRL further contends that the disclosurededication rule does not impose a § 112 requirement

App-27
for sufficiency of disclosure, see Toro Co. v. White
Consol. Indus., Inc., 383 F.3d 1326, 1334 (Fed. Cir.
2004), and that a skilled artisan reading the ’209
patent would both look for a disclosure of pemetrexed
in Akimoto, and also seek to use a well-known cation
like tromethamine, which it maintains is generically
disclosed in Akimoto in the form of “substituted
ammonium” base salts.
We are unpersuaded by DRL’s arguments. As the
district court noted, Akimoto’s formula, col. 1 l. 49-col.
2 l. 3, includes seven functional group variables and
encompasses thousands of compounds, and while
Akimoto discloses about fifty exemplary compounds,
none of them is pemetrexed. Moreover, Akimoto does
not even disclose tromethamine expressly but only
generically among dozens of other salts. At most,
Akimoto discloses ammonium salts generally, which is
far from a description of tromethamine. In similar
circumstances, we have held that “sufficient
description of a genus” requires that a skilled artisan
be able to “‘visualize or recognize’ the members of the
genus.” See Ariad Pharm., Inc. v. Eli Lilly & Co., 598
F.3d 1336, 1350 (Fed. Cir. 2010) (quoting Regents of
the Univ. of Cal. v. Eli Lilly & Co., 119 F.3d 1559,
1568-69 (Fed. Cir. 1997)). Akimoto does not so describe
pemetrexed ditromethamine, and we see no reason
why a skilled artisan would set out on DRL’s winding
path to cobble together pemetrexed ditromethamine.
While the ’209 patent teaches that pemetrexed
disodium is the “most preferred” antifolate, that
knowledge would not change the skilled artisan’s
understanding of what Akimoto discloses.

App-28
Because Akimoto contains only a “generic
reference” to pemetrexed ditromethamine, PSC
Comput., 355 F.3d at 1360, we conclude that it was not
dedicated to the public.
3. Merits
A component in an accused product or process
may be equivalent to a claim element if the two are
insubstantially different with respect to the “role
played by [the] element in the context of the specific
patent claim.” Warner-Jenkinson, 520 U.S. at 39-40.
Relevant differences can include the function each
serves, the way in which each works, and the result
each obtains, id. at 39, and, especially in biochemical
cases, structural or pharmacological characteristics,
Mylan Inst. LLC v. Aurobindo Pharm. Ltd., 857 F.3d
858, 869 (Fed. Cir. 2017). “The determination of
equivalency vel non is a question of fact,” Canton Bio
Med., Inc. v. Integrated Liner Techs., Inc., 216 F.3d
1367, 1369 (Fed. Cir. 2000) (citing Pall Corp. v. Micron
Separations, Inc., 66 F.3d 1211, 1218 (Fed. Cir. 1995)),
which we review for clear error in an appeal from a
bench trial, Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348,
1359 (Fed. Cir. 2007).
DRL argues that the district court erred in finding
that its proposed pemetrexed ditromethamine product
will be administered in an insubstantially different
way from the claimed method. DRL maintains that
the district court focused on the fact that each product
treats the same diseases by delivering pemetrexed
intravenously, when the relevant context is the
manner of administration. In DRL’s view, the
chemical
differences
between
sodium
and
tromethamine—e.g., pH, buffering capacity, or

App-29
solubility—DRL Br. 20-21, render the methods in
which each is administered to a patient substantially
different.
Lilly responds that the relevant context is
treatment of a patient “in need of chemotherapeutic
treatment.” ’209 patent claim 12. Lilly agrees with the
district court that the chemical differences between
sodium and tromethamine are clinically irrelevant
because each undisputedly lacks therapeutic activity.
We see no clear error in the district court’s
findings. As the district court found, DRL’s product
will accomplish an identical aim, furnishing the same
amount of pemetrexed to active sites in the body; in
exactly the same way, by diluting a pemetrexed salt in
an aqueous solution for intravenous administration.
Indeed, after dilution and immediately before
administration, DRL’s product is functionally
identical to Lilly’s in that it contains the same amount
of diluted pemetrexed anion. DRL J.A. 8557. And DRL
declines to identify the relevance of any of the
chemical differences it identifies. See UCB, Inc. v.
Watson Labs. Inc., 927 F.3d 1272, 1284-86 (Fed. Cir.
2019) (chemical differences may not be relevant if the
equivalent has known interchangeability in the
context of the claimed composition). We find DRL’s
arguments unconvincing and therefore affirm the
district court’s findings.
In summary, these cases are eminently suitable
for application of the doctrine of equivalents, and we
conclude that neither prosecution history estoppel nor
the disclosure-dedication rule bars Lilly from
asserting infringement through equivalence.

App-30
CONCLUSION
We have fully considered each party’s further
arguments but find them unpersuasive. For the
foregoing reasons, we reverse the district court’s
finding of literal infringement in the Hospira Decision
but affirm its judgment of infringement under the
doctrine of equivalents. The judgment of infringement
under the doctrine of equivalents in the DRL Decision
is likewise affirmed.
AFFIRMED-IN-PART AND REVERSED-IN-PART
IN APPEAL NOS. 2018-2126, 2018-2127
AFFIRMED IN APPEAL NO. 2018-2128
COSTS
Each party shall bear its own costs.

App-31
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 18-2128
________________
ELI LILLY AND COMPANY,
v.

Plaintiff-Appellee,

DR. REDDY’S LABORATORIES, LTD., DR. REDDY’S
LABORATORIES, INC.,
Defendants-Appellants.
________________
Dated: November 8, 2019
________________
Before: Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.
________________
ORDER
________________
Appellants Dr. Reddy’s Laboratories, Inc. and Dr.
Reddy’s Laboratories, Ltd. filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Appellee Eli Lilly and
Company. The petition was first referred as a petition
for rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was

App-32
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
It is ordered that:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November
15, 2019.
FOR THE COURT
November 8, 2019
Date

Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App-33
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16-cv-00308-TWP-MPB
________________
ELI LILLY AND COMPANY,
v.

Plaintiff,

DR. REDDY’S LABORATORIES, LTD., and DR. REDDY’S
LABORATORIES, INC.,
Defendants.
________________
Dated: June 22, 2018
________________
FINDINGS OF FACT AND CONCLUSIONS
OF LAW FOLLOWING FEBRUARY 1, 2018
BENCH TRIAL
This matter was before the Court for a bench trial
beginning on February 1, 2018 and concluding on
February 2, 2018, on the issue of infringement of U.S.
Patent No. 7,772,209 (the “‘209 Patent”). This is a
Hatch-Waxman patent infringement action brought
by Eli Lilly and Company (“Lilly”), the owner of the
‘209 Patent, against Defendants Dr. Reddy’s
Laboratories, Inc. and Dr. Reddy’s Laboratories, Ltd.
(collectively, “Dr. Reddy’s”) arising out of Dr. Reddy’s
filing of New Drug Application No. 208297 (the
“NDA”) with the Food and Drug Administration
(“FDA”) seeking approval to market the product

App-34
described therein. The ‘209 Patent describes a method
of administering a chemotherapy drug, pemetrexed
disodium (“pemetrexed”), with vitamins, which is
marketed by Lilly under the trade name ALITMA®.
Lilly is asserting that Dr. Reddy’s drug product, which
uses pemetrexed ditromethamine, infringes the ‘209
Patent. Dr. Reddy’s contends that its product is not a
generic drug, rather, its product uses a different
chemical. Particularly at issue is claim 12. The Court
previously constructed claim 12 to refer to a liquid
administration of pemetrexed disodium. (Filing
No. 199 at 9.) Having heard testimony and considered
the exhibits and arguments of the parties, the Court
makes the following findings of fact and conclusions of
law pursuant to Federal Rule of Civil Procedure 52.
I.

Findings of Fact

Lilly is a corporation organized and existing
under the laws of the State of Indiana, having its
corporate offices and principal place of business at
Lilly Corporate Center, Indianapolis, Indiana 46285.
Lilly sells pemetrexed in the United States under the
trademark ALIMTA® for treatment of patients with
malignant pleural mesothelioma, or for the initial
treatment of locally advanced or metastatic
nonsquamous non-small cell lung cancer, and other
forms of lung cancer. ALIMTA® is covered under U.S.
Patent No. 5,344,932, which is owned by The Trustees
of Princeton University and licensed exclusively to
Lilly.
Dr. Reddy’s Ltd. is a drug manufacturer with a
principal executive office at Hyderabad, Telangana
500 034, India, and Dr. Reddy’s Inc. is a corporation
organized and existing under the laws of the State of

App-35
New Jersey. Dr. Reddy’s is in the business of
manufacturing, marketing, and selling both generic
and non-generic drug products. In December 2015, Dr.
Reddy’s notified Lilly that it had submitted to the FDA
New Drug Application No. 208297, a product that will
be marketed as competing products to ALIMTA®
Dr. Clet Niyikiza (“Dr. Niyikiza”), the inventor of
the ‘209 Patent, is a mathematician that was
employed by Lilly in the 1990s to help with the clinical
development of cancer compounds. In early 1997, Dr.
Niyikiza performed a series of statistical analyses,
known as multivariate analyses, on more than 60
variables in patients participating in pemetrexed
clinical trials in efforts to better understand which
patients were likely to develop the sporadic toxicities
observed with pemetrexed. The problem the invention
solves
is
toxicity
in
patients
receiving
chemotherapeutic treatment with pemetrexed. In
particular, the ‘209 Patent provides for a method that
mitigates the toxicity associated with pemetrexed
treatment, using the vitamin pretreatment regimen of
vitamin B12 and folic acid. (Filing No. 231 at 35.)
The primary focus of this infringement trial is on
whether Dr. Reddy’s label, specifically the use of
pemetrexed ditromethamine product described
therein, infringes the ‘209 Patent, which uses
pemetrexed disodium, under the doctrine of
equivalents. The ‘209 Patent covers the method of
administration of ALIMTA®, requiring that
physicians co-administer the drug with folic acid and
vitamin B12 to reduce the incidence of patient toxicity
caused by ALIMTA®. Claim 12 of the ‘209 Patent
describes an improved method for administering

App-36
pemetrexed disodium, comprising “a) administration
of between 3500 μg and about 1000 μg of folic acid
prior to the first administration of pemetrexed
disodium; b) administration of about 500 μg to about
1500 μg of vitamin B12, prior to the first
administration of pemetrexed disodium; and
c) administration of pemetrexed disodium.” (Filing
No. 1-1 at 9).
The parties disagree on the relevance of any
chemical differences between pemetrexed disodium
and pemetrexed ditromethamine, nevertheless both
Lilly’s and Dr. Reddy’s experts, Dr. Bruce A. Chabner,
M.D., (“Dr. Chabner”), Rodolfo Pinal (“Dr. Pinal”), and
George Gokel (“Dr. Gokel”), agreed on what the
differences were between the two chemical
compounds. Sodium is an inorganic metallic salt, and
tromethamine is an organic, nonmetallic salt. (Filing
No. 231 at 181.) Tromethamine weighs more than
sodium. Id. Because tromethamine can raise pH, it
can be used as buffer; however, sodium may not be
used as a buffer because it cannot be used as a pH
adjuster. Id. at 158. Additionally, it is undisputed that
pemetrexed disodium is more hygroscopic and absorbs
more than twice the amount of water than pemetrexed
ditromethamine. Id. at 173. As noted in the Court’s
claim construction finding, regardless if pemetrexed
disodium or pemetrexed ditromethamine is
administered to the patient, the patient receives an
intravenous solution of pemetrexed in treating the
patient’s cancer. The evidence presented at trial
demonstrates that the person who solves the problems
to which the claims are addressed requires a medical
oncologist.

App-37
II. Conclusions of Law
A. Prosecution History Estoppel
In the Court’s amended Final Pretrial Entry, the
Court permitted the parties, at trial, to supplement
the summary judgment record on the issue of
prosecution history estoppel. (Filing No. 216 at 4.) In
its Entry on Motion for Summary Judgment of
Noninfringement, the Court found Lilly was not
barred, as a matter of law under prosecution history
estoppel, from asserting the doctrine of equivalents.
(Filing No. 199 at 15.) (“Lilly has met its burden of
showing that it did not surrender the equivalent in
question because the choice of pemetrexed salt is
tangential to the reasons for the amendment and
summary judgment is precluded on this issue.”)
As in the summary judgment briefing, Dr. Reddy’s
continues to collapse the foreseeability exception with
the tangential exception, on which the Court relied in
holding in Lilly’s favor. Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 733
(2002). Dr. Reddy’s focuses on the unexplained reason
that Lilly limited the ‘209 Patent to pemetrexed
disodium, in essentially arguing that Lilly could have
drafted a better claim. (“[A]” patentee cannot argue in
litigation that a narrowing amendment in prosecution
was excessive, and that the patentee could have
avoided the prior art (and gained allowance) with a
less severe amendment that would have literally
embraced the accused equivalent.” (Filing No. 234 at
6).) In any event, Lilly has explained the reason for the
narrowing amendment: it was narrowed to overcome
a rejection in view of Arsenyan, a prior art article
about a different antifolate, methotrexate. (Filing

App-38
No. 235 at 35.) The Court agrees with Lilly that at
trial Dr. Reddy’s expert, Dr. Gokel, did nothing to
dispute or add to the summary judgment record as to
the prosecution history evidence from which
tangentiality is analyzed. (Filing No. 232 at 42.)
Accordingly, the Court again concludes that Lilly’s
rationale for limiting its claim to pemetrexed disodium
(to avoid a rejection based on the prior art Arsenyan)
is tangential to the accused equivalent—pemetrexed
ditromethamine. The Court directs the parties to
Filing No. 199 for a more detailed analysis regarding
the Court’s holding that Lilly has rebutted the
presumption that prosecution history estoppel
applies.
B. Disclosure-Dedication Rule
Another issue, extensively briefed by the parties
on summary judgment, was the disclosure-dedication
doctrine. Again, the trial record and the summary
judgment record contain significant overlap as to this
issue. Because Lilly did not move for summary
judgment on this issue, it was not decided on summary
judgment, rather it was fleshed out by expert
testimony at the trial. The disclosure-dedication rule
bars a doctrine of equivalents claim when a patentee
discloses but does not claim subject matter. Johnson
& Johnston Associates, Inc. v. R.E. Service Co., Inc.,
285 F.3d 1046, 1054 (Fed. Cir. 2002).
As noted in the Court’s Entry on Motion for
Summary Judgment of Noninfringement, it is
undisputed that the ‘209 Patent’s specification did not
expressly disclose pemetrexed ditromethamine.
Rather, Dr. Reddy’s bases its disclosure-dedication
argument on the fact that the ‘209 Patent referenced

App-39
U.S. Patent No. 4,997,838 to Akimoto and that from
Akimoto the hypothetical person of skill in the art
(“POSA”) could find pemetrexed ditromethamine
disclosed among the alternatives disclosed in Akimoto.
(Filing No. 234 at 25-26.) Generic references in a
written specification do not necessarily dedicate all
members of a particular genus to the public. SanDisk
Corp. v. Kingston Technology Co., Inc., 695 F.3d 1348,
1363 (Fed. Cir. 2012).
Rather, the ‘disclosure must be of such
specificity that one of ordinary skill in the art
could identify the subject matter that had
been disclosed and not claimed.’ Additionally,
in Pfizer Inc. v. Teva Pharmaceuticals, USA,
Inc., 429 F.3d 1364 (Fed. Cir. 2005), this court
further clarified that ‘before unclaimed
subject matter is deemed to have been
dedicated to the public, that unclaimed
subject matter must have been identified by
the patentee as an alternative to a claim
limitation.’
Id. (citations omitted). Although the ‘209 Patent did
not expressly incorporate Akimoto by reference, it
cited that preferred examples of antifolates can be
found in the derivatives described by Akimoto. (Filing
No. 1-1 at 5.) Because this issue hinged on what a
POSA would recognize as unclaimed subject matter
disclosed in the ‘209 Patent specification and if
Akimoto’s disclosures in combination would disclose
pemetrexed ditromethamine, it left a factual dispute
for trial.
At trial, Dr. Pinal testified that Akimoto included
pemetrexed and any “pharmaceutically acceptable

App-40
salt thereof.” (Filing No. 231 at 249.) From this
concession, Dr. Reddy’s argues that pharmaceutically
accepted salts would include substituted ammonium
salts of which tromethamine is one of a few FDAapproved substituted ammonium salts. (Filing
No. 234 at 24.) Thus, Dr. Reddy’s contends that a
POSA would have recognized pemetrexed in
combination with tromethamine as an alternative to
pemetrexed disodium. (Filing No. 234 at 26-27.) Lilly
responds that while Dr. Pinal testified that
pemetrexed is within the genus covered by Akimoto,
Dr. Pinal also testified that Akimoto disclosed a genus
of thousands of antifolates. (Filing No. 231 at 227.)
Further, tromethamine is not specifically disclosed in
any referenced patent nor is the compound
pemetrexed ditromethamine. (Filing No. 238 at 1617.) Because Akimoto was not expressly incorporated,
as required, in the ‘209 Patent, and in any event
Akimoto does not specifically disclose pemetrexed
ditromethamine as an alternative to pemetrexed
disodium, the disclosure-dedication rule does not bar
Lilly’s doctrine of equivalents claim. At most, the
reference to Akimoto and what was contained therein
amounts to a generic reference which does not
dedicate all members of a particular genus to the
public.
C. Doctrine of Equivalents
Lilly asserts, and the Court agrees, that
healthcare providers using the proposed Dr. Reddy’s
product will directly infringe under the doctrine of
equivalents, and that Dr. Reddy’s is liable as an
indirect infringer under 35 U.S.C. §§ 271(b) and (c).

App-41
As an initial matter, the relevant POSA must be
defined for a doctrine of equivalents analysis. “What
constitutes equivalency must be determined against
the context of the patent, the prior art, and the
particular circumstances of the case.” WarnerJenkinson Co. v. Hilton Davis Chem. Co., 520 U.S. 17,
24 (1997) (citation omitted). Thus, a POSA becomes an
important factor as to “whether persons reasonably
skilled in the art would have known of the
interchangeability of an ingredient not contained in
the patent with one that was.” Id. Dr. Reddy’s
contends that the POSA should be the type of person
who solves the problems to which the claims are
addressed such as Dr. Niyikiza, the inventor of the
patent.1 (Filing No. 234 at 28, 30.) (“The POSA could
be trained as a chemist, biochemist, pharmaceutical
scientist, physician, or molecular biologist. The POSA,
even if he is a physician, should have a strong
background in chemistry and biochemistry,
understand the folate pathways and metabolism, and
have a solid grasp of acid-base.”) Dr. Reddy’s proposed
POSA would examine the doctrine of equivalents from
the perspective of the chemical and biochemical
properties between pemetrexed disodium and
pemetrexed ditromethamine. (Filing No. 234 at 30.)
Lilly responds that the ‘209 Patent makes clear, from
the plain language of the claims and testimony from
the inventor, Dr. Niyikiza, that the POSA is directed
to a medical oncologist. (Filing No. 235 at 13.) Lilly’s
proposed POSA would perform a doctrine of
1 Dr. Niyikiza is a statistician, with a Ph.D. in mathematics and
statistics, not a chemist, biochemist, pharmaceutical scientist,
physician, or molecular biologist. (Filing No. 238 at 21.)

App-42
equivalents analysis focusing on the medical
treatment aspects of the claims. (Filing No. 238 at 19.)
This Court has “previously defined the POSA as ‘a
medical doctor who specializes in oncology or a
medical doctor with extensive experience in the areas
of nutritional sciences involving vitamin deficiencies
[,who] collaborated with medical oncologists who have
knowledge and experience in the treatment of cancer
through the use of antifolates.’” Eli Lilly and Company
v. Teva Parenteral Meds., Inc., 1:10-cv-1376-TWPMPB, 2012 WL 2358102, at *4 (S.D. Ind. June 20,
2012), ECF 115 at 8. Essentially, the point of
contention between the proposed POSAs advanced by
the parties is whether the POSA is a chemist or an
oncologist.
Dr. Reddy’s POSA definition is defeated by the
plain language of the ‘209 Patent as the invention
explicitly identifies it as “a method of reducing the
toxicity associated with the administration of an
antifolate to a mammal …” (Filing No. 1-1 at 5). Lilly
is correct that the relevant POSA who works to
mitigate the toxicities of chemotherapy would be an
oncologist, particularly an oncologist with extensive
experience in the areas of nutritional sciences
involving vitamin deficiencies as confirmed by Dr.
Chabner. Thus, equivalency is examined from an
oncologist POSA. The relevant POSA is critical (and
dispositive) to resolving the doctrine of equivalents
analysis in the context of the claims as to whether the
POSA would focus on the different salt forms of
pemetrexed
disodium
and
pemetrexed
ditromethamine as being substantial differences, or
instead would focus on the pemetrexed treatment that
the patient receives.

App-43
The United States Supreme Court has set out two
frameworks for evaluating equivalence—the function,
way, result test (whether the accused product
performs ‘substantially the same function in
substantially the same way to obtain the same result’),
and the insubstantial differences test (whether the
accused product or process is substantially different
from what is patented). Mylan Institutional LLC v.
Aurobindo Pharma Ltd., 857 F.3d 858, 866-67 (Fed.
Cir. 2017) (“Thus, the Court seemingly blessed two
equivalents tests, leaving to the lower courts in future
cases the choice of which to apply.”) (quoting Graver
Tank & Mfg. Co. v. Linde Air Prod. Co., 339 U.S. 605,
608 (1950). Additionally, the Federal Circuit, relying
on Graver, noted that the insubstantial differences
test may be more appropriate in chemical arts cases.
Id. (“The Supreme Court was surely correct in stating
that non-mechanical cases may not be well-suited to
consideration under the FWR test.”) Because
equivalence in this case is based on chemical
properties, the Court determines that the
insubstantial differences test is the more appropriate
framework for evaluating equivalence.
“Under the doctrine of equivalents, a claim
limitation not literally met may be satisfied by an
element of the accused product if the differences
between the two are ‘insubstantial’ to one of ordinary
skill in the art.” Boehringer Ingelheim Vetmedica, Inc.
v. Schering-Plough Corp., 320 F.3d 1339, 1351 (Fed.
Cir. 2003). “The doctrine of equivalents allows the
patentee to claim those insubstantial alterations that
were not captured in drafting the original patent claim
but which could be created through trivial changes.”
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co.,

App-44
535 U.S. 722, 733 (2002). As noted previously, the
relevant POSA, in this case, is a medical oncologist.
Dr. Chabner testified that the invention claimed in the
‘209 Patent relates to “using pretreatment B12 and
folic acid to mitigate the toxicity of pemetrexed when
it’s given to a patient with cancer.” (Filing No. 231 at
70.) Additionally, Dr. Chabner testified that the
pemetrexed disodium could not exert an anti-cancer
effect in solid form, thus the POSA would understand
that pemetrexed disodium is administered by first
putting it into solution and then intravenously
administering the solution to the patient for an anticancer effect. Id. at 72.
Under the relevant context that the claim relates
to medical treatment, pemetrexed ditromethamine
treats the patient’s cancer in exactly the same way as
pemetrexed disodium. It is undisputed that when both
pemetrexed
disodium
and
pemetrexed
ditromethamine are placed in solution, that both
compounds dissociate completely in solution resulting
in free pemetrexed and therapeutically irrelevant
counterions. Id. at 208-09. In fact, in aqueous solution,
the two products will be identical. (Filing No. 231 at
212.) Recognizing these similarities, Dr. Reddy’s
relied on Lilly’s clinical trials of pemetrexed disodium,
in demonstrating the safety and efficacy of its product,
when it told the FDA that the salt form does not
matter when it comes to treating the patient to
support approval of its NDA product. (Filing No. 231
at 80-81.) It is undisputed that the products are
bioequivalent; however, the parties disagree on
whether there is patent equivalence in the context of
the claimed method. (Filing No. 234 at 42-43; Filing
No. 238 at 24.) “[W]hen a commercial product meets

App-45
all of the claim limitations, then a comparison to that
product may support a finding of infringement.”
Adams Respiratory Therapeutics, Inc. v. Perrigo Co.,
616 F.3d 1283, 1289 (Fed. Cir. 2010).
The differences in the chemical properties
between pemetrexed disodium and pemetrexed
ditromethamine with regards to solubility, stability,
pH, and buffering capacity are irrelevant in the
context of the claimed method including this Court’s
claim construction. (Filing No. 234 at 42.)
Additionally, the theoretical phenomenon of the
difference of salting out between the two products is
irrelevant, as ALIMTA®’s label “requires the solution
to be clear prior to administration and specifically
instructs physicians not to administer it if any
particulate matter is observed.” (Filing No. 235 at 2223.) To be sure, the evidence shows that tromethamine
differs from sodium with regards to the chemical
properties as alleged by Dr. Reddy’s. Lilly does not
dispute that there are differences when the products
are in solid form, instead Lilly argues that the
differences are insubstantial. (Filing No. 231 at 80.)
The Court agrees. The differences are irrelevant in the
context of the claimed method which is a liquid
administration of pemetrexed sodium. What is in fact
ultimately administered to the patient is injectable
pemetrexed ions that enter the patient’s cells. (Filing
No. 231 at 79-80.) The products are identical in liquid
form as pemetrexed is the active moiety in both Dr.
Reddy’s and Lilly’s products dissolved in solution. (See
Filing No. 232 at 124-25; Filing No. 235 at 18.)
Furthermore, Dr. Reddy’s incorrectly relies on a
chemist POSA in posing nonequivalence, who would
not administer the drugs to a patient as the ‘209

App-46
Patent is a claimed method of treatment. Accordingly,
Lilly has shown by a preponderance of the evidence
that Dr. Reddy’s product is equivalent to Lilly’s
product.
D. Inducement
and
Contribution
Infringement of ‘209 Patent

to

A party can be held liable for indirect
infringement by actively inducing or contributing to
direct infringement by others. 35 U.S.C. § 271(b), (c).
Direct infringement occurs when one party makes,
uses, offers to sell, sells, or imports each element of a
patented invention. 35 U.S.C. § 271(a). Because Dr.
Reddy’s does not provide care to patients, the direct
infringement is attributed to the healthcare providers.
“Inducement requires that the alleged infringer
knowingly induced infringement and possessed a
specific intent to encourage another’s infringement.”
AstraZeneca LP v. Apotex, Inc., 633 F.3d 1042, 1056
(Fed. Cir. 2010). Courts have inferred intent to induce
infringement based on the contents of labels. Id.
(holding circumstantial evidence may suffice to prove
specific intent to induce infringement). Similarly,
labels may also form the basis to infer intent under
contributory infringement when they instruct users to
perform a patented method. See Eli Lilly & Co. v.
Actavis Elizabeth LLC, 435 F. App’x 917, 926 (Fed.
Cir. 2011).
Relying on Commil USA, LLC v. Cisco Sys., Inc.,
135 S. Ct. 1920, 1928 (2015), Dr. Reddy’s contends
that Lilly cannot prove Dr. Reddy’s specifically
intended to infringe because specific intent requires
proof that Dr. Reddy’s knew the acts were infringing.
(Filing No. 234 at 44.) As evidence that Dr. Reddy’s did

App-47
not know its product would infringe the ‘209 Patent,
Dr. Reddy’s offers that it selected tromethamine, in
good-faith belief, to avoid infringing the ‘209 Patent.
Id. at 45. As Lilly correctly points out, Dr. Reddy’s
ignores how specific intent can be shown in the HatchWaxman context, particularly how specific intent can
be inferred from an accused product’s labeling.
AstraZeneca LP v. Apotex, Inc. considered similar facts
where Apotex’s product development team testified
that it “never intended to instruct or encourage either
physicians or patients to use its generic drug oncedaily.” Id. However, AstraZeneca held “[t]he pertinent
question is whether the proposed label instructs users
to perform the patented method. If so, the proposed
label may provide evidence of Apotex’s affirmative
intent to induce infringement.” Id. at 1060. Specific
intent and liability for inducement are established if
“the product labeling that Defendants seek would
inevitably lead some physicians to infringe.” Eli Lilly
and Company v. Teva Parenteral Meds., Inc., 845 F.3d
1357, 1368-69 (Fed. Cir. 2017); Takeda Pharms. USA,
Inc. v. West-Ward Pharm. Corp., 758 F.3d 625, 631
(Fed. Cir. 2015). Dr. Reddy’s has provided no defense
to the infringing pretreatment regimen portion of its
label that this Court has already found induced
infringement in another case with label instructions
substantively identical to those in Dr. Reddy’s Label.
Eli Lilly and Company v. Teva Parenteral Meds., Inc.,
No.1:10-cv-1376-TWP-MPB, 126 F.Supp.3d 1037 (S.D.
Ind. Aug. 25, 2015).
As
noted
previously,
administration
of
pemetrexed ditromethamine according to Dr. Reddy’s
label infringes Lilly’s product under the doctrine of
equivalents. In a Hatch-Waxman case such as this,

App-48
infringement “is focused on the product that is likely
to be sold following FDA approval,” including the
relevant knowledge of the parties at the time the
product is sold. See Abbott Laboratories v. TorPharm,
Inc., 300 F.3d 1367, 1373 (Fed. Cir. 2002) (“This
determination is based on consideration of all the
relevant evidence, including the ANDA filing, other
materials submitted by the accused infringer to the
FDA, and other evidence provided by the parties.”).
“We have long held that the sale of a product
specifically labeled for use in a patented method
constitutes inducement to infringe that patent, and
usually is also contributory infringement.” Eli Lilly &
Co. v. Actavis Elizabeth LLC, 435 F. App'x 917, 926
(Fed. Cir. 2011) (citing AstraZeneca LP v. Apotex, Inc.,
633 F.3d 1042, 1060 (Fed.Cir.2010)).
This Court has determined that Dr. Reddy’s
product infringes the ‘209 Patent under the doctrine of
equivalents. Accordingly, it cannot avoid intent or
infringement on the bases that it possessed a “good
faith belief that its proposed product[s] would not
infringe.” Moreover, the Court finds, based on a
preponderance of the evidence, Dr. Reddy’s label
instructs users to perform the patented method by
both inducing and contributing to infringement and
that Dr. Reddy’s had the requisite specific intent and
knowledge that its label would cause such
infringement. Dr. Reddy’s product does not have a
substantial noninfringing use to avoid contributory
infringement. A physician administering Dr. Reddy’s
product would constitute direct infringement under
§ 271(a); thus, the use the Dr. Reddy’s NDA products
would constitute inducement and contributory

App-49
infringement of the ‘209 Patent by Dr. Reddy’s under
35 U.S.C. § 271(b), (c).
III. Conclusion
Based upon the foregoing findings of fact and
conclusions of law, the Court concludes that Lilly has
shown by a preponderance of the evidence that the
asserted claims of the ‘209 Patent would be infringed
by Dr. Reddy’s product under the doctrine of
equivalents based upon inducement and contributory
infringement. The Court finds that Dr. Reddy’s
product indirectly infringes the asserted claims of the
‘209 Patent, and finds in favor of Eli Lilly And
Company and against Dr. Reddy’s Laboratories, Inc.
and Dr. Reddy’s Laboratories, Ltd.. Final judgment
shall issue separate from this Entry.
SO ORDERED.
Date: 6/22/2018

[handwritten: signature]
TANYA WALTON PRATT,
JUDGE
United States District Court
Southern District of Indiana

App-50
Appendix D
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16-cv-00308-TWP-MPB
________________
ELI LILLY AND COMPANY,
v.

Plaintiff,

DR. REDDY’S LABORATORIES, LTD. and DR. REDDY’S
LABORATORIES, INC.,
Defendants.
________________
Dated: June 22, 2018
________________
ENTRY ON MOTION FOR SUMMARY
JUDGMENT OF NONINFRINGEMENT
This matter is before the Court on Defendants Dr.
Reddy’s Laboratories, LTD.’s and Dr. Reddy’s
Laboratories, Inc.’s (collectively, “Dr. Reddy’s”) Motion
for Summary Judgment of Noninfringement of the
U.S. Patent 7,772,209 (the “’209 Patent”) (Filing
No. 132). Plaintiff Eli Lilly and Company (“Lilly”)
initiated this Hatch-Waxman litigation alleging that
Dr. Reddy’s New Drug Application No. 208297 and the
use of the product described therein, infringe Lilly’s
‘209 Patent. On November 9, 2017, oral argument was
held on the Motion at which the parties made helpful
presentations. For the reasons stated below, the Court

App-51
determines that summary judgment is
appropriate and Dr. Reddy’s Motion is denied.
I.

not

BACKGROUND

The ‘209 Patent describes a method of
administering a chemotherapy drug, pemetrexed
disodium, with a pretreatment regimen of vitamin
B12 and folic acid (“pretreatment regimen”), which is
marketed by Lilly under the trade name ALIMTA®.
The ‘209 Patent has been the subject of two previous
trials before this Court. See Eli Lilly and Co. v. Teva
Parenteral Medicines, Inc., 126 F. Supp.3d 1037, 1038
(S.D. Ind. 2015)1. Those cases specifically concerned
generic drug manufacturers that sought to market a
generic version of ALIMTA® including labeling that
induced physicians to direct patients to take folic acid
and vitamin B12 in accordance with the pretreatment
claims in the ‘209 Patent. Specifically, in the Teva
case, the pretreatment regimen and whether the steps
of the claimed method could be attributed to a single
actor was at issue. Id.
During prosecution of its patent application for
ALIMTA®, the U.S. Patent and Trademark Office
originally rejected claim 2 of the ‘209 Patent as being
anticipated by a prior art article, Arsenyan et.al.
(“Arsenyan”). Arsenyan concerned the administration
of the compound methotrexate.2 To avoid rejection of
its patent in view of Arsenyan, Lilly narrowed the
1 The ‘209 Patent is also the subject of other pending
infringement suits pending before this Court.
2 Both methotrexate and pemetrexed fall within the broader
antifolate group, but they target different enzymes. (Filing
No. 146 at 44.)

App-52
scope of its claims from a broad category of antifolates
to specifically pemetrexed disodium. (Filing No. 133-1
at 124; Filing No. 146 at 30.)
Dr. Reddy’s is a drug manufacturer and does not
treat patients, therefore any infringement would be
based on indirect infringement. Dr. Reddy’s set out to
avoid infringing the ‘209 Patent by designing a
different product. It ran experiments to investigate
different salts, and chose tromethamine. Unlike the
generic drug manufacturers that used pemetrexed
disodium in the proposed generic drugs in previous
trials, Dr. Reddy’s seeks to market a new product that
uses pemetrexed ditromethamine, rather than
pemetrexed disodium.
A point of contention between the parties is
whether pemetrexed ditromethamine was excluded
(thus designated public use) from the claims during
patent prosecution by Lilly’s specification and
narrowing amendment from the term “antifolates” to
“pemetrexed disodium.” Tromethamine is an
inorganic, metallic salt, whereas sodium is an organic,
nonmetallic salt. (Filing No. 135 at 8.) The liquid
solution of both chemical compounds results in
pemetrexed treatment, but the powdered solid form of
the two products differ as a result of the different salt
compounds used. The patient receives the liquid
solution intravenously. The products are sold in solid
form. At issue is claim 12 of the ‘209 Patent. Claim 12
reads as follows:
12. An improved method for administering
pemetrexed disodium to a patient in need of
chemotherapeutic treatment, wherein the
improvement comprises:

App-53
a) administration of between about 350 μg
and about 1000 μg of folic acid prior to the
first administration of pemetrexed disodium
b) administration of about 500 μg to about
1500 μg of vitamin B12, prior to the first
administration of pemetrexed disodium; and
c) administration of pemetrexed disodium.
(Filing No. 1-1 at 9).
As previously noted, Dr. Reddy’s product uses a
different
pemetrexed
compound:
pemetrexed
ditromethamine. In addition, Dr. Reddy’s label on the
administration of the pemetrexed ditromethamine
differs from Lilly’s in that Dr. Reddy’s label instructs
that pemetrexed ditromethamine should be
reconstituted and diluted with 5% dextrose in water
(“dextrose”), whereas Lilly’s label instructs that the
pemetrexed disodium should be reconstituted and
diluted in saline solution. (Filing No. 92-3; Filing
No. 179-1.) Dr. Reddy’s label states “[c]oadminstration
of pemetrexed with other drugs and diluents has not
been studied, and therefore is not recommended.”
(Filing No. 92-3 at 9.) Dr. Reddy’s label also instructs
that the pretreatment regimen be followed and
mitigates the severe toxicities that pemetrexed can
otherwise cause. Id. at 42.
Both Dr. Reddy’s and Lilly’s labels indicate that
its products are to be administered along with
cisplatin for some patients. Id. at 11. Before cisplatin
can be administered to a patient it requires and is
standard practice to prehydrate it with saline to
prevent serious kidney toxicity. (Filing No. 146 at 1314.) Dr. Reddy’s label instructs that the cisplatin be
administered intravenously approximately thirty

App-54
minutes after the end of administration of pemetrexed
treatment. (Filing No. 92-3 at 37.) Saline is commonly
used in intravenous administration for many different
drugs.
II. Legal Standard
The purpose of summary judgment is to “pierce
the pleadings and to assess the proof in order to see
whether there is a genuine need for trial.” Matsushita
Electric Industrial Co. v. Zenith Radio Corp., 475 U.S.
574, 587 (1986). Federal Rule of Civil Procedure 56
provides that summary judgment is appropriate if
“the
pleadings,
depositions,
answers
to
interrogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine
issue as to any material fact and that the moving party
is entitled to a judgment as a matter of law.”
Hemsworth v. Quotesmith.Com, Inc., 476 F.3d 487,
489-90 (7th Cir. 2007). In ruling on a motion for
summary judgment, the court reviews “the record in
the light most favorable to the nonmoving party and
draw[s] all reasonable inferences in that party’s
favor.” Zerante v. DeLuca, 555 F.3d 582, 584 (7th Cir.
2009) (citation omitted). However, “[a] party who
bears the burden of proof on a particular issue may not
rest on its pleadings, but must affirmatively
demonstrate, by specific factual allegations, that there
is a genuine issue of material fact that requires trial.”
Hemsworth, 476 F.3d at 490 (citation omitted). “In
much the same way that a court is not required to
scour the record in search of evidence to defeat a
motion for summary judgment, nor is it permitted to
conduct a paper trial on the merits of a claim.” Ritchie
v. Glidden Co., 242 F.3d 713, 723 (7th Cir. 2001)

App-55
(citation and internal quotations omitted). Finally,
“neither the mere existence of some alleged factual
dispute between the parties nor the existence of some
metaphysical doubt as to the material facts is
sufficient to defeat a motion for summary judgment.”
Chiaramonte v. Fashion Bed Grp., Inc., 129 F.3d 391,
395 (7th Cir. 1997) (citations and internal quotations
omitted).
III. Discussion
As an initial matter, the Court notes that Lilly
recently changed its ALIMTA® label in response to
the Food and Drug Administration’s (“FDA”)
instructions to change various aspects of the label.
Nevertheless, both parties agree that the new label
does not change the substance or legal theories of any
of the briefings previously submitted to the Court and
that the parties are prepared to go forward with the
proceedings as they currently stand. (Filing No. 182 at
7-10.)
Lilly argues that Dr. Reddy’s product infringes
under two theories: literal infringement and the
doctrine of equivalents. (Filing No. 146 at 19.) The
Court will first address the embedded claim
construction issue and then address each
infringement theory.
A. Claim Construction
The claims define the scope of patent protection.
Johnson & Johnston Associates, Inc. v. R.E. Service
Co., Inc., 285 F.3d 1046, 1052 (Fed. Cir. 2002). The
words of a claim are generally given their ordinary and
customary meaning, as understood by a person of skill
in the art (“POSA”) when the patent was filed. Phillips
v. AWH Corp., 415 F.3d 1303, 1312-13 (Fed. Cir. 2005)

App-56
(en banc). When the ordinary meaning of a claim is
disputed, the Federal Circuit has directed courts to
look to the patent specification, which is the single
best guide to the meaning of a disputed term. Id. at
1315 (quoting Vitronics Corp. v. Conceptronic, Inc., 90
F.3d 1576, 1582 (Fed. Cir. 1996)). “The construction
that stays true to the claim language and most
naturally aligns with the patent’s description of the
invention will be, in the end, the correct construction.”
Phillips, 415 F.3d at 1316. Courts may also consider
extrinsic evidence, such as expert testimony or
dictionaries, but such evidence is “less significant”
than the patent specification and prosecution history
(i.e., the written history of patentee’s prior dealings
with the patent office). Id. at 1317. “Importantly, the
person of ordinary skill in the art is deemed to read
the claim term not only in the context of the particular
claim in which the disputed term appears, but in the
context of the entire patent, including the
specification.” Id. “[I]t is necessary to consider the
specification as a whole, and to read all portions of the
written description, if possible, in a manner that
renders the patent internally consistent.” Budde v.
Harley-Davidson, Inc., 250 F.3d 1369, 1379-80 (Fed.
Cir. 2001). “A claim construction that excludes a
preferred embodiment … is rarely, if ever correct.”
SanDisk Corp. v. Memorex Products, Inc., 415 F. 3d
1278, 1285 (Fed. Cir. 2005) (citation and internal
quotation omitted).
At the hearing, the parties set forth different
constructions of claim 12’s meaning. (See Filing No.
182 at 23, 30.) It is undisputed that claim 12 is a
method claim, but the parties essentially dispute the
meaning of “administration of pemetrexed disodium.”

App-57
Lilly argues that “administration of pemetrexed
disodium” refers to the act of giving the patient the
liquid solution of pemetrexed disodium after it has
been diluted and reconstituted because no salt form is
given to patients. (Filing No. 182 at 30.) Lilly explains
that its experts have opined that a POSA would
understand claim 12 to embrace the meaning of a
solution with pemetrexed ions and two sodium ions
that is given to patients intravenously. Id. Dr. Reddy’s
argues that this construction would improperly
require “changing each instance of ‘pemetrexed
disodium’ in the claims to a ‘solution comprising
pemetrexed ions and sodium ions.’” (Filing No. 167 at
3.)
“Claim construction begins with the language of
the asserted claims.” SanDisk, 415 F.3d at 1284
(citation omitted). As stated previously the relevant
asserted claim at issue is “administration of
pemetrexed disodium”. The dispute between the
parties’ different claim construction arguments turns
on the word “administration”. This is primarily due to
the fact that the patient receives the product through
a liquid solution, but ALIMTA® is sold in solid or salt
form.3
The Federal Circuit prefers intrinsic evidence
over extrinsic evidence in construing claims. See
Phillips, 415 F.3d at 1317 (“However, while extrinsic
evidence ‘can shed useful light on the relevant art,’ we
have explained that it is ‘less significant than the
intrinsic record in determining ‘the legally operative
3 Although Dr. Reddy’s product is not on the market yet, it is
also being proposed to sell in a solid form.

App-58
meaning of claim language.’’”) (citations omitted).
Turning to the intrinsic evidence first, the Court
begins with the specification. The specification must
conclude with the claims “particularly pointing out
and distinctly claiming the subject matter” which the
applicant regards as his invention. See 35 U.S.C.
§ 112. This apprises the public of the metes and
bounds of the subject matter for which the inventor
seeks patent protection.
The ‘209 Patent’s specification distinctly claims
pemetrexed disodium. The prosecution history is
consistent with this result. “The court must always
consult the prosecution history, when offered in
evidence, to determine if the inventor surrendered
disputed claim coverage.” SanDisk, 415 F.3d at 1286.
Here, the prosecution history reveals that the
amendments to the detailed description section of the
specification as well as the claims were made in
response to the U.S. Patent and Trademark Office’s
(“Patent Office”) rejections. (Filing No. 133-1 at 14748.) Lilly limited the chemical compound used in claim
12 to pemetrexed disodium. “As a basic principle of
claim interpretation, prosecution disclaimer promotes
the public notice function of the intrinsic evidence and
protects the public’s reliance on definitive statements
made during prosecution. SanDisk, 415 F.3d at 1287
(citation omitted).
Unlike pemetrexed disodium, the parties’ dispute
over the word “administration” is not completely
resolved by resorting to intrinsic evidence alone. The
specification, claims, nor prosecution history do not
resolve this dispute. “There is no ‘clear and
unmistakable’ disclaimer if a prosecution argument is

App-59
subject to more than one reasonable interpretation,
one of which is consistent with a proffered meaning of
the disputed term.” Id. (citation omitted). The ‘209
Patent does reveal that it is a method invention, but
the claims do not address how ALIMTA® i.e.,
pemetrexed disodium, is actually given to the patient.
That requires reading the label’s detailed directions.
Both products’ labels require the powdered form of the
drugs to be diluted and reconstituted, using different
liquid solvents.4 The expert reports shed light on what
a POSA would understand “administration” to mean.
The Court finds it very persuasive that both products
are administered in liquid form to be indicative that a
POSA would understand the ‘209 Patent to refer to a
method of liquid administration of pemetrexed
disodium.
What happens to pemetrexed disodium or
pemetrexed ditromethamine after the liquid solution
is prepared and administered to the patient is not a
question that needs to be resolved in construing claim
12. In any event, the parties agree on the science of
what happens during the administration of the liquid
solution the patient. “And Dr. Chabner is saying, well,
I think people would understand the claim to mean
this. And, basically, what he’s saying is, because that
makes sense, that’s what Lilly should have done,
people know that it’s the pemetrexed that matters.”
(Filing No. 182 at 51) (emphasis added). The patient
receives pemetrexed treatment. “Claim construction is
a matter of resolution of disputed meanings and
technical scope, to clarify and when necessary to
4 Lilly’s label requires saline, while Dr. Reddy’s label requires
dextrose.

App-60
explain what the patentee covered by the claims, for
use in the determination of infringement. It is not an
obligatory exercise in redundancy.” U.S. Surgical
Corp., v. Ethicon, Inc., 103 F.3d 1554, 1568 (Fed. Cir.
1997). Having already determined based on the
intrinsic evidence, Lilly claimed “pemetrexed
disodium,” the Court declines further claim
construction based on Lilly’s assertion that the term
“embraces the administration in liquid form of
pemetrexed ions in combination with two sodium ions.
(Filing No. 182 at 30.) In sum, the Court construes
claim 12’s “administration of pemetrexed disodium”
language to refer to a liquid administration of
pemetrexed disodium. The liquid administration is
accomplished by dissolving the solid compound
pemetrexed disodium into solution as instructed by
the ALIMTA® label. This construction is consistent
with the ‘209 Patent’s specification and the plain
meaning of claim 12 as well as the prosecution history.
It is undisputed that a POSA would understand that
the ‘209 Patent refers to a method of liquid
administration because pemetrexed is the active
ingredient that treats the cancer and the patient
receives the solution intravenously. Further, this
construction adheres to the bedrock patent claim
construction principle to not exclude a preferred
embodiment i.e., pemetrexed disodium, and renders
the patent internally consistent.
B. Literal Infringement
“Literal infringement requires a patentee to prove
by a preponderance of the evidence that every
limitation of the asserted claim is literally met by the
allegedly infringing device.” Biovail Corp. Intern. v.

App-61
Andrx Pharmaceuticals, Inc., 239 F. 3d 1297, 1302
(Fed. Cir. 2001). Lilly’s theory of literal infringement
involves Dr. Reddy’s product’s use in combination with
certain patients that require another chemotherapy
drug called cisplatin. In these instances, Dr. Reddy’s
label instructs that the pemetrexed product is to be
infused thirty minutes before cisplatin. Cisplatin
requires prehydration with saline solution—sodium
chloride. (Filing No. 146 at 2.) Lilly contends that the
cisplatin use and pemetrexed infusion will overlap
because they are administered thirty minutes apart
and that when this happens Dr. Reddy’s product will
mix with the saline solution due to the prehydration
requirement. The resulting solution will contain
pemetrexed molecules and sodium and tromethamine
ions that disassociate from each other. Lilly explains
that Dr. Reddy’s product will be mixed with saline
solution as it is being infused into a patient through
the same intravenous line as the saline prehydration.
The resulting solution will contain pemetrexed and
sodium ions—that is pemetrexed disodium.
Dr. Reddy’s responds that Lilly’s theory of literal
infringement would require healthcare providers to
completely disregard its label instructions to use the
Dr. Reddy’s product with dextrose solution only. Lilly
relies on the fact that the label does not explicitly
instruct not to use saline and that a POSA would know
that saline is suitable for use with pemetrexed drugs
as Lilly’s product has been safely administered with
saline for over a decade. (Filing No. 146 at 15.) Dr.
Reddy’s label states that co-administration of Dr.
Reddy’s products with other diluents has not been
studied and is therefore not recommended. Dr.
Reddy’s argues that Lilly’s literal infringement claim

App-62
must prove that the Dr. Reddy’s label instructs users
to mix the Dr. Reddy’s product with saline. Dr. Reddy’s
label also states that its product should not mix with
anything except dextrose before it is infused. Dr.
Reddy’s also explains that even if healthcare providers
mixed Dr. Reddy’s pemetrexed ditromethamine with
saline this would not be “administration of
pemetrexed disodium” as required by Lilly’s patent
claims.
The claim construction issue has been resolved as
a liquid administration of pemetrexed disodium. For
purposes of summary judgment, the Court must credit
Lilly’s literal infringement theory that cisplatin’s
requirement and established practice of saline
prehydration would overlap with the pemetrexed
infusion and the two would mix via healthcare
providers administering both through the same
intravenous line. Furthermore, because saline
contains sodium ions that this would result in
infringement when Dr. Reddy’s pemetrexed
ditromethamine product is mixed with the saline
resulting in a liquid administration of the pemetrexed
disodium solution. Based on the foregoing, viewing the
facts in a light favorable to Lilly, there are disputed
issues of material fact as to whether every limitation
of the asserted claim is literally met by the allegedly
infringing device. Thus, Dr. Reddy’s Motion for
Summary Judgment of Noninfringement (Filing
No. 132) is denied as to literal infringement.
C. Doctrine of Equivalents
“The doctrine of equivalents extends the right to
exclude beyond the literal scope of the claims.”
Johnson, 285 F.3d at 1053. “The doctrine of

App-63
equivalents allows the patentee to claim those
insubstantial alterations that were not captured in
drafting the original patent claim but which could be
created through trivial changes.” Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722,
733 (2002). The doctrine of equivalents is restricted by
the “all limitations” rule and the prosecution history
estoppel rule by limiting the range of equivalents
when claims have been narrowed. See Pozen Inc. v.
Par Pharmaceutical, Inc., 696 F.3d 1151, 1167. Dr.
Reddy’s argues that Lilly’s doctrine of equivalents
infringement claim is foreclosed by prosecution
history estoppel, the disclosure dedication rule, and
doctrine of vitiation. The Court will address each of
these threshold arguments in turn.
1.

Prosecution History Estoppel

Dr. Reddy’s argues that prosecution history
estoppel bars Lilly’s doctrine of equivalents claim at
the threshold as a matter of law. (Filing No. 182 at 12.)
It is undisputed that Lilly narrowed its broader
antifolates claim to pemetrexed disodium during
prosecution to avoid Arsenyan prior art. It is also
undisputed that Dr. Reddy’s product would fall within
the scope of the original antifolates claim. Under
Festo, Lilly’s narrowing amendment triggers a
presumption of surrender that Lilly must rebut to
sustain its doctrine of equivalents claim. Festo, 535
U.S. at 725. Festo held three exceptions to defeat
prosecution history estoppel:
The equivalent may have been unforeseeable
at the time of the application; the rationale
underlying the amendment may bear no more
than a tangential relation to the equivalent in

App-64
question; or there may be some other reason
suggesting that the patentee could not
reasonably be expected to have described the
insubstantial substitute in question. In those
cases the patentee can overcome the
presumption that prosecution history
estoppel bars finding an equivalence.
Id. at 740-41. Lilly argues that the tangential
exception applies here, in that the different salt forms
of pemetrexed used bear no more than a tangential
relationship to the rationale for the underlying
amendment. (Filing No. 146 at 23.) Lilly concedes that
the amendment was to overcome a rejection in view of
Arsenyan, however it explains that Arsenyan is a prior
art article about the administration of a compound
called methotrexate, also an antifolate but
distinguishable from pemetrexed.
Dr. Reddy’s incorrectly reads Festo to hold that
the rationale for the amendment must be both
unforeseeable and tangential, but explains that even
if tangential is an independent basis, Lilly is
nevertheless precluded from asserting doctrine of
equivalents because Lilly’s narrowing amendment
went to the identity of a particular type of antifolate—
pemetrexed disodium. (Filing No. 167 at 6.) Dr.
Reddy’s goes on to cite Lilly’s prosecution of the
European equivalent of the ‘209 Patent where Lilly
claimed pemetrexed broadly and used a dependent
claim to claim the salt form: pemetrexed disodium.
(Filing No. 182 at 16U.) This argument goes to
foreseeability that Lilly allegedly knew how to draft a
broad pemetrexed claim that was not narrowly limited
to disodium salt.

App-65
Lilly argues that for the tangential exception “it
makes no difference whether Lilly ‘limited the scope of
drugs in the claimed method’ in a way that turned out
to exclude the accused pemetrexed ditromethamine.”
Because pemetrexed, the active drug substance,
actually treats the cancer patient, and pemetrexed
disodium and pemetrexed ditromethamine are very
similar, this exception necessarily presents a battle of
the experts issue. In fact, it is undisputed that a POSA
would understand that pemetrexed is the active
antifolate (or drug) in both products.
In Regents of University of Cal. v. Dakocytomation
Cal. Inc., the Federal Circuit held that a patentee’s
narrowing amendment that centered on a method of
blocking to avoid prior art that did not involve blocking
was tangential to the particular nucleic acid used to
accomplish the blocking. 517 F. 3d 1364, 1378 (Fed.
Cir. 2008). The patent at issue in that case claimed
“blocking nucleic acid” which was construed by the
district court to involve human DNA, whereas the
accused product used synthetic (not human) nucleic
acids referred to as peptide nucleic acids. Id. The
district court granted summary judgment of
noninfringement to the maker of the accused products
because it held that the patentees had narrowed the
scope of “blocking nucleic acid” during prosecution
which barred the patentees from asserting the peptide
nucleic acid equivalent. Id. The Federal Circuit
reversed holding “[t]he prosecution history therefore
reveals that in narrowing the claim to overcome the
prior art rejections, the focus of the patentees’
arguments centered on the method of blocking—not on
the particular type of nucleic acid that could be used

App-66
for blocking.” Id. Thus, the Federal Circuit found the
narrowing amendment was tangential.
The present case is similar to the distinction
presented in Regents. The ‘209 Patent’s specification
describes a method for pemetrexed disodium
treatment. Lilly’s expert opined that a POSA would
understand pemetrexed is the active antifolate that
inhibits the enzymes at issue and treats the cancer.
Dr. Reddy’s argues that the salt form used in the
patent goes to the identity of the antifolate that Lilly
sought to claim and is thus barred from claiming
pemetrexed as a class under prosecution history
estoppel.
The prosecution history reveals that the Patent
Office rejected various Lilly claims due to the prior art
Arsenyan.
Claims 2, 7, 10, 31 are rejected under 35
U.S.C. 102(b) as being anticipated by
Arsenyan et al. (Abstract; Onkol., Nauchn.,
(1978) 12(10); 49-54. Arsenyan et al. teaches
a method of pretreating mammals (mice) with
various types of cancer with methylcobalamin
(a vitamin B12 derivative which reduces
methylmalonic acid) then administering
methotrexate (an antifolate), and reports
increased tumor inhibition and survival with
methylcobalamin treatment.
(Filing No. 133-1 at 115.) The Arsenyan prior art
rejection also served as the basis for an obviousness
rejection. (Filing No. 133-1 at 117.) The prior art
rejections thus went to patentability. The Patent
Office’s communications do not refer to pemetrexed
broadly, but also refer to pemetrexed disodium in

App-67
combination with the pretreatment regimen as not
being anticipated by the prior art. This is probably
because
ALIMTA®
is
sometimes
used
interchangeably with pemetrexed disodium during
Lilly’s patent prosecution. (See Filing No. 133-1 at
136.) At one point the Patent Office rejected Lilly’s use
of the trade name ALIMTA® in its claims as being
vague and indefinite language, and Lilly responded
with
substituting
pemetrexed
disodium
for
ALIMTA®. (Filing No. 133-1 at 115.)
To overcome the prior art rejection, Lilly argued
that the invention was new and nonobvious because it
used the pretreatment regimen in combination with
administration of pemetrexed disodium to treat the
cancer and reduce the toxicities associated with
pemetrexed disodium administration. (Filing No. 1331 at 127.) The narrowing amendment (from antifolates
as a class to pemetrexed disodium) was only
tangential to the accused pemetrexed equivalent—
pemetrexed ditromethamine. Thus, Lilly has met its
burden of showing that it did not surrender the
equivalent in question because the choice of
pemetrexed salt is tangential to the reasons for the
amendment and summary judgment is precluded on
this issue.
2.

Disclosure Dedication Doctrine

Dr. Reddy’s argues that Lilly’s equivalents claim
is also barred by the disclosure dedication rule.
“[W]hen a patent drafter discloses but declines to
claim subject matter ... this action dedicates that
unclaimed subject matter to the public.” Johnson, 285
F. 3d at 1054. “[T]he public notice function of patents
suggests that before unclaimed subject matter is

App-68
deemed to have been dedicated to the public, that
unclaimed subject matter must have been identified
by the patentee as an alternative to a claim
limitation.” Pfizer, 429 F. 3d 1379.
It is undisputed that the ‘209 Patent’s
specifications do not expressly disclose pemetrexed
ditromethamine. Dr. Reddy’s bases its disclosure
dedication argument on the fact that the ‘209 Patent
referenced another patent, Akimoto, and the
pemetrexed salt derivatives described by Akimoto
would include pemetrexed ditromethamine. (Filing
No. 167 at 13.) Lilly responds that “[t]he Federal
Circuit has recognized the possibility of using the
specification of a different patent only where it was
expressly incorporated by reference.” (Filing No. 146
at 28.)
The disclosure dedication rule has limitations.
Generic references in a written specification do not
necessarily dedicate all members of a particular genus
to the public. SanDisk Corp. v. Kingston Technology
Co., Inc., 695 F.3d 1348, 1363 (Fed. Cir. 2012).
Rather, the ‘disclosure must be of such
specificity that one of ordinary skill in the art
could identify the subject matter that had
been disclosed and not claimed.’ Additionally,
in Pfizer Inc. v. Teva Pharmaceuticals, USA,
Inc., 429 F.3d 1364 (Fed. Cir. 2005), this court
further clarified that ‘before unclaimed
subject matter is deemed to have been
dedicated to the public, that unclaimed
subject matter must have been identified by
the patentee as an alternative to a claim
limitation.’

App-69
Id. (citations omitted). There are two issues with Dr.
Reddy’s disclosure dedication argument. First, the
‘209 Patent did not expressly incorporate Akimoto by
reference. Rather, the ‘209 Patent cites that preferred
examples of antifolates can be found in the derivatives
described by Akimoto. (Filing No. 1-1 at 5.) Dr.
Reddy’s argues that if a POSA went looking in
Akimoto that the POSA would find pemetrexed and
other substituted ammonium salts. To this second
issue, Lilly responds that its experts will testify that
Akimoto discloses a broader genus which would
balloon out to over 200,000 compounds. The Court
agrees that because of this large generic genus, no
POSA would understand Akimoto to specifically
disclose pemetrexed, tromethamine, or pemetrexed
ditromethamine from the broader genus of compounds
that Akimoto discloses unless they knew to go looking
for it. The disclosure dedication issue presented in this
case hinges on what a POSA would recognize as
unclaimed subject matter disclosed in the ‘209 Patent
specification and if Akimoto’s disclosures in
combination
would
disclose
pemetrexed
ditromethamine. The Akimoto reference does not
satisfy the disclosure dedication rule’s requirements of
a specific identification that amounted to a disclosure
of an alternative to a claim limitation. Because
pemetrexed ditromethamine was not disclosed and
identified with specificity, the disclosure dedication
rule does not prevent Lilly from pursuing a doctrine of
equivalents infringement theory nor dedicated it to
the public.

App-70
3.

Doctrine of Vitiation

“[I]n cases where the patentee’s theory of
equivalents would ‘entirely vitiate a particular claim
element, partial or complete summary judgment
should be rendered by the court.’” Sage Products, Inc.,
v. Devon Industries, Inc., 126 F.3d 1420, 1429 (Fed.
Cir. 1997) (citation omitted). The doctrine of vitiation
or the “all elements” rule forecloses a patentee’s resort
to the doctrine of equivalents when the facts or
theories presented in a case would completely read a
limitation out of a claim because “all elements” of a
claim must be present in an accused product for there
to be infringement. See Depuy Spine, 469 F.3d at 1017.
Dr. Reddy’s argues that the amended (and
limiting) term pemetrexed disodium would be read out
of the claim and restored with the rejected term
“antifolates” under Lilly’s theory of equivalents as
articulated in its expert reports. Lilly responds that its
theory on the scope of equivalents does not encompass
all antifolates; rather, Lilly poses the function-wayresult test to prove that the two products are
equivalent in the context of the claimed treatment
claims because they both involve pemetrexed
treatment that results in a chemotherapy effect. The
dispute between the parties on this issue includes a
discussion of Lilly’s expert, Dr. Bruce A. Chabner’s
(“Dr. Chabner”), report and deposition. Dr. Reddy’s
contends that Dr. Chabner raises new theories on
defining the function-way-result test in his deposition
which were not raised in his expert report that are
inadmissible at trial and at the summary judgment
stage. (Filing No. 167 at 16). Specifically, Dr. Reddy’s
argues that Dr. Chabner changed his “way” analysis

App-71
from “inhibition of [] folate-dependent enzymes” to
“inhibition of particular folate-dependent enzymes.”
Id. at 16. (emphasis added). Previously, the Court
ruled that Dr. Chabner’s report and deposition were
admissible when the Court sustained Lilly’s objection
to the Magistrate Judge’s striking portions of this
evidence as well as Lilly’s literal infringement theory.
(Filing No. 154.) Additionally, the factual record on
the distinction between pemetrexed disodium and
pemetrexed ditromethamine precludes summary
judgment as it presents a clear battle of the experts
issue. The different salt form that is used between the
two products goes directly to the heart of Lilly’s
doctrine of equivalents claim and the limitation is thus
not entirely vitiated by the substitution. Because
there are factual issues precluding summary
judgment on the doctrine of equivalents and Lilly has
met its burden in clearing the threshold issues raised
by Dr. Reddy’s, summary judgment is not warranted.
D. Indirect Infringement
Direct infringement occurs when one party
makes, uses, offers to sell, sells, or imports each
element of a patented invention. 35 U.S.C. § 271(a).
Because Dr. Reddy’s does not provide care to patients
the direct infringement is attributed to the healthcare
providers. A party can be held liable for indirect
infringement by actively inducing or contributing to
direct infringement by others. 35 U.S.C. § 271(b), (c).
The Court will address liability for inducement of
infringement first. “Liability for inducement of
infringement is predicated on a finding of direct
infringement by a third party.” Eli Lilly and Co. v.
Teva Parenteral Medicines, Inc., 126 F. Supp. 3d 1037,

App-72
1041 (S.D. Ind. 2015) (citing Limelight Networks v.
Akamai Technologies Inc., 134 S.Ct. 2111, 2117
(2014)). “Inducement requires that the alleged
infringer knowingly induced infringement and
possessed a specific intent to encourage another’s
infringement.” AstraZeneca LP v. Apotex, Inc., 633
F.3d 1042, 1056 (Fed. Cir. 2010). Courts have inferred
intent to induce infringement based on the contents of
labels. Id. (holding circumstantial evidence may
suffice to prove specific intent to induce infringement).
“The pertinent question is whether the proposed label
instructs users to perform the patented method. If so,
the proposed label may provide evidence of []
affirmative
intent
to
induce
infringement.”
AstraZeneca, 633 F.3d at 1060. Similarly, labels may
also form the basis to infer intent under contributory
infringement when they instruct users to perform a
patented method. See Eli Lilly & Co. v. Actavis
Elizabeth LLC, 435 F. App’x 917, 926 (Fed. Cir. 2011).
Liability for contributory infringement under 35
U.S.C. § 271(c) can be avoided if the product is a
“staple article or commodity of commerce suitable for
substantial noninfringing use.” “One who makes and
sells articles which are only adapted to be used in a
patented combination will be presumed to intend the
natural consequences of his acts; he will be presumed
to intend that they shall be used in the combination of
the patent.” Metro-Goldwyn-Mayer Studios Inc. v.
Grokster, Ltd. 545 U.S. 913, 932 (2005).
Reviewing the record in a light most favorable to
Lilly, Lilly has shown that Dr. Reddy’s product will
result in induced or contributory infringement. With
regards to the literal infringement theory and

App-73
cisplatin use, Lilly argues that standard practice
would require healthcare providers to use saline
solution with cisplatin which would then result in a
solution containing pemetrexed and disodium ions—
i.e. pemetrexed disodium. Specific, knowing intent is
required
for
inducement
and
contributory
infringement. Nevertheless, Lilly has shown there are
disputed issues of material fact on whether Dr.
Reddy’s label instructs an infringing use under either
literal infringement or the doctrine of equivalents to
infer intent and knowledge necessary for either form
of indirect infringement. “Even where a proposed label
does not explicitly track the language of a claimed
method, a package insert containing directives that
will ‘inevitably lead some consumers to practice the
claimed method’ provides sufficient evidence for a
finding of specific intent.” Sanofi v. Glenmark
Pharmaceuticals Inc., USA, 204 F. Supp. 3d 665, 67374 (D. Ct. Del.) (quoting AstraZeneca, 633 F. 3d at
1060). In a Hatch-Waxman case such as this,
infringement “is focused on the product that is likely
to be sold following FDA approval,” including the
relevant knowledge of the parties at the time the
product is sold. See Abbott Laboratories v. TorPharm,
Inc., 300 F.3d 1367, 1373 (Fed. Cir. 2002) (“This
determination is based on consideration of all the
relevant evidence, including the ANDA filing, other
materials submitted by the accused infringer to the
FDA, and other evidence provided by the parties.”).
Viewing the facts in the light most favorable to Lilly,
it has shown that Dr. Reddy’s label will instruct users
to perform the patented method by inducing or
contributing to infringement and that Dr. Reddy’s had
the requisite intent and knowledge that its label

App-74
would cause such infringement. Thus, summary
judgment is precluded.
IV. CONCLUSION
There are genuine disputes of material fact with
respect to the claims before the Court. For the reasons
stated above, Dr. Reddy’s Motion for Summary
Judgment (Filing No. 132) is DENIED. Lilly’s literal
infringement and doctrine of equivalents claims
remain pending for trial.
SO ORDERED.
Date: 12/14/2017

[handwritten: signature]
TANYA WALTON PRATT,
JUDGE
United States District Court
Southern District of Indiana

